<html>
<title> - CONFRONTING VIOLENT WHITE SUPREMACY (PART III): ADDRESSING THE TRANSNATIONAL TERRORIST THREAT</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


            CONFRONTING VIOLENT WHITE SUPREMACY (PART III):
                      ADDRESSING THE TRANSNATIONAL
                            TERRORIST THREAT

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                AND THE

            SUBCOMMITTEE ON CIVIL RIGHTS AND CIVIL LIBERTIES

                                 OF THE

                   COMMITTEE ON OVERSIGHT AND REFORM

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 20, 2019

                               __________

                           Serial No. 116-63

                               __________

      Printed for the use of the Committee on Oversight and Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                  Available on: http://www.govinfo.gov
                    http://www.oversight.house.gov or
                        http://www.docs.house.gov                        
 
                              __________
                                
 
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
37-975 PDF                  WASHINGTON : 2019                     
           
 --------------------------------------------------------------------------------------

  
                        
                        
                   COMMITTEE ON OVERSIGHT AND REFORM

                 CAROLYN B. MALONEY, Acting Chairwoman

Eleanor Holmes Norton, District of   Jim Jordan, Ohio, Ranking Minority 
    Columbia                             Member
Wm. Lacy Clay, Missouri              Paul A. Gosar, Arizona
Stephen F. Lynch, Massachusetts      Virginia Foxx, North Carolina
Jim Cooper, Tennessee                Thomas Massie, Kentucky
Gerald E. Connolly, Virginia         Mark Meadows, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Harley Rouda, California             James Comer, Kentucky
Katie Hill, California               Michael Cloud, Texas
Debbie Wasserman Schultz, Florida    Bob Gibbs, Ohio
John P. Sarbanes, Maryland           Ralph Norman, South Carolina
Peter Welch, Vermont                 Clay Higgins, Louisiana
Jackie Speier, California            Chip Roy, Texas
Robin L. Kelly, Illinois             Carol D. Miller, West Virginia
Mark DeSaulnier, California          Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Kelly Armstrong, North Dakota
Stacey E. Plaskett, Virgin Islands   W. Gregory Steube, Florida
Ro Khanna, California                Frank Keller, Pennsylvania
Jimmy Gomez, California
Alexandria Ocasio-Cortez, New York
Ayanna Pressley, Massachusetts
Rashida Tlaib, Michigan

                     David Rapallo, Staff Director
                Candyce Phoenix, Minority Staff Director
                      Dan Rebnord, Staff Director
                          Amy Stratton, Clerk

               Christopher Hixon, Minority Staff Director

                      Contact Number: 202-225-5051
                   Subcommittee on National Security

               Stephen F. Lynch, Massachusetts, Chairman
Jim Cooper, Tennesse                 Jody B. Hice, Georgia, Ranking 
Peter Welch, Vermont                     Minority Member
Harley Rouda, California             Paul A. Gosar, Arizona
Debbie Wasserman Schultz, Florida    Virginia Foxx, North Carolina
Robin L. Kelly, Illinois             Mark Meadows, North Carolina
Mark DeSaulnier, California          Michael Cloud, Texas
Stacey E. Plaskett, Virgin Islands   Mark E. Green, Tennessee
Brenda L. Lawrence, Michigan         Clay Higgins, Louisiana

            Subcommittee on Civil Rights and Civil Liberties

                    Jamie Raskin, Maryland, Chairman
Wm. Lacy Clay, Missouri              Chip Roy, Texas, Ranking Minority 
Debbie Wasserman Schultz, Florida        Member
Robin L. Kelly, Illinois             Thomas Massie, Kentucky
Jimmy Gomez, California              Mark Meadows, North Carolina
Alexandria Ocasio-Cortez, New York   Jody B. Hice, Georgia
Ayanna Pressley, Massachusetts       Michael Cloud, Texas
Eleanor Holmes Norton, District of   Carol D. Miller, West Virginia
    Columbia                         Fred Keller, Pennsylvania
                         
                         
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2019...............................     1

                               Witnesses

Dr. Kathleen Belew, Research Fellow, Center for Advanced Study in 
  Behavioral Sciences, Stanford University
Oral Statement...................................................     6
Dr. Joshua Geltzer, Director, Institute for Constitutional 
  Advocacy and Protection, Georgetown Law
Oral Statement...................................................     8
Ms. Katrina Mulligan, Managing Director, National Security and 
  International Policy, Center for American Progress
Oral Statement...................................................    10
Ms. Candace Owens, Founder, Blexit, Host, Candace Owens Show
Oral Statement...................................................    12

                           Index of Documents

                              ----------                              

The documents listed below are available at: https://
  docs.house.gov.

  * Unanimous Consent: National Review article, "How to Combat 
  White Supremacist Gun Violence While Protecting the Second 
  Amendment; submitted by Rep. Roy.


 
            CONFRONTING VIOLENT WHITE SUPREMACY (PART III):
                      ADDRESSING THE TRANSNATIONAL
                            TERRORIST THREAT

                       Friday, September 20, 2019

                   House of Representatives
      Subcommittee on National Security, joint with
  Subcommittee on Civil Rights and Civil Liberties,
                          Committee on Oversight and Reform
                                                   Washington, D.C.

    The subcommittees met, pursuant to notice, at 9:11 a.m., in 
room 2154, Rayburn House Office Building, Hon. Jamie Raskin 
[chairman of the Subcommittee on Civil Rights and Civil 
Liberties] presiding.
    Present: Representatives Raskin, Lynch, Maloney, Clay, 
Welch, Wasserman Schultz, Rouda, Kelly, Plaskett, Pressley, 
Norton, Roy, Hice, Meadows, Green, Higgins, and Jordan (ex 
officio).
    Mr. Raskin. The subcommittee will come to order. Good 
morning, everyone. Without objection, the chair's authorized to 
declare a recess of the committee at any time. This joint 
hearing of the National Security and Civil Rights and Civil 
Liberties Subcommittees is entitled, ``Confronting Violent 
White Supremacy (Part III): Addressing the Transnational 
Terrorist Threat.'' I am delighted to be joined by Mr. Lynch, 
who is the chair of the National Security Subcommittee, and I 
will turn it over to him for his opening statement.
    Mr. Lynch. Thank you very much, Mr. Chairman, and to the 
ranking member. Good morning. I want to thank the chairman for 
calling this hearing, and I also want to thank our witnesses 
for your willingness to help the committee with its work. 
Unfortunately, with scheduling, I have to say in advance, that 
I have a competing committee just down the hall that's having 
roll call votes on a markup, so I'm going to have to depart and 
then come back, but I will be present for most of the hearing.
    Today, we will discuss the urgent need for the United 
States to treat white supremacist violence as a transnational 
terrorist threat to our national security. As Chairman Raskin 
will detail in his opening statement, far right nationalist 
ideologies are spreading and reverberating across the world. In 
recent years, we've seen white supremacists increasingly 
resorting to the use of violence to achieve their ideological 
objectives. And today, for the first time since September 11, 
2001, more people have been killed in racially motivated or 
right-wing terrorist incidents in the United States than in 
attacks perpetrated by Islamic extremists.
    This brings me to an important distinction that we must 
make absolutely clear when framing the parameters of today's 
hearing: Not all right-wing extremists, white supremacists, or 
white nationalists are terrorists. The First Amendment grants 
Americans the freedom of speech, and the Supreme Court has 
repeatedly found that political or ideological speech requires 
the highest level of protection, even if the content of that 
speech is abhorrent, or contrary to American values.
    However, the point at which violence is used or suggested, 
or threatened, to advance those political objectives, is the 
threshold at which counterterrorism and law enforcement 
officials must be empowered to intervene in order to maintain 
the peace and to save lives.
    This is a difficult task that requires striking a delicate 
balance, but it is a challenge the U.S. Government became 
intimately familiar with in the aftermath of the September 11 
attacks. Many Americans will recall that as the United States 
exerted overwhelming military and counterterrorism pressure on 
Al-Qaeda, and later, the Islamic State of Iraq and Syria. These 
terrorist organizations increasingly turn to homegrown violent 
extremists to carry out terrorist attacks without specific 
direction or financial support from their organizational 
leadership.
    These homegrown violent extremists often radicalized on the 
internet, sometimes in virtual chat rooms with other 
sympathizers, creating an ideological echo chamber that would 
ultimately inspire them to carry out acts of terrorism in 
pursuit of their political objectives. White supremacists and 
right-wing terrorists have taken a page from the jihadi 
playbook. Today, right-wing extremists are radicalizing on the 
internet, absorbing hate-filled propaganda on sites like the 
Daily Stormer, and in digital chat rooms, such as Achan.
    There, they find common ideological cause with other white 
supremacists, and are sometimes moved to take violent action. 
This latest wave of white supremacist terrorism thus closely 
resembles that of the jihadi homegrown violent extremists as 
both lack explicit direction or financial support from a fixed, 
specific terrorist organization, thereby making it exceedingly 
challenging for counterterrorism and law enforcement officials 
to collect intelligence on potential plots, terrorist networks, 
and attackers.
    Nevertheless, in the aftermath of September 11, the U.S. 
intelligence community and national security agencies, as well 
as those of our allies and partners, mobilized to address the 
global jihadi terrorist threat.
    In 2004, Congress passed the Intelligence Reform and 
Terrorist Prevention Act, which created the office of the 
Director of National Intelligence, to lead the U.S. 
intelligence community, as well as the National 
Counterterrorism Center, to analyze and integrate terrorist-
related intelligence and to conduct strategic operational 
planning for U.S. counterterrorism activities.
    In the fall of 2014, the United States created a global 
coalition to counter ISIS, which today includes 81 countries 
and international organizations to improve information sharing 
and to counter ISIS financing and propaganda. Most recently, in 
December 2017, the United States Security Council--excuse me--
the United Nations Security Council passed Resolution 2396, 
which requires U.N. States to develop watch lists or data bases 
of known or suspected terrorists, including foreign fighters.
    We need to start treating violent white supremacy with the 
same urgency as we do violent Islamic extremism, and with the 
whole-of-government approach. Unfortunately, for too long, U.S. 
counterterrorism efforts had focused almost exclusively on the 
jihadi terrorist threat, and I look forward to today's hearing 
to discuss how best the U.S. should address the growing threat 
of white nationalist terrorism.
    Mr. Chairman, thank you again for your courtesy and for 
holding this hearing.
    I yield back.
    Mr. Raskin. Thank you very much, Mr. Chairman, and thanks 
for that splendid opening statement. I turn now to the ranking 
member, Mr. Roy of Texas.
    Mr. Roy. I thank the chairman, and appreciate all the 
witnesses for being here today for this important topic. We've 
had a number of hearings on this, and I know that we got some 
votes this morning that may be taken up--I don't intend to make 
a long opening statement, but I do want to make a couple of 
points because these are important issues.
    I do think it is important for us to keep in mind, you 
know, the perspective here of what we're dealing with and the 
overall context of crime in our Nation. I've talked about that 
before, as the chairman knows. The number of murders, 17,000 
murders in the United States, and kind of looking at the root 
of that, and then how many of these murders are focused on this 
particular problem.
    I think if you put that in context, right, we've got a lot 
of issues we need to deal with. And importantly here, you know, 
one of my good friends is a guy named Andy McCarthy, who many 
of you probably know, was a prosecutor who prosecuted the World 
Trade Center bombings in New York in 1993 as one of the 
assistant U.S. attorneys there in New York, and the Southern 
District of New York. Andy has a piece in National Review that 
was dated, let me see here, August 5, 2019, in which he 
suggests, and I think it would be a good potential future 
hearing, he suggests that one of the problems that we face 
right now is that we don't have the kind of focus on ideology-
based crimes in the Department of Justice. His contention is, 
is that under the Obama Administration, the Obama Department of 
Justice, we backed away from sort of anti-jihad crimes, and in 
doing so, we kind of backed away from focusing on ideology.
    So, as a former Federal prosecutor, I look through the lens 
of, I don't care where somebody comes from, what their race is, 
what their background is, anything else, I want to go find the 
bad guys, and I want to make sure that the Department of 
Justice and the FBI have the tools to go find the bad guys, 
regardless of persuasion, but at the end of the day, making 
sure we got a targeted effort to do that so I would ask that 
Andy's article be put in the record because I think he raises 
an important point, and I think it would be something we should 
focus on in the future if we could have a hearing along those 
lines and, you know, his point is just saying----
    Mr. Raskin. Without objection. What's the name of the 
article?
    Mr. Roy. Oh, sorry. That would be helpful, would it not? 
``How to Combat White Supremacist Gun Violence While Protecting 
the Second Amendment.''
    Mr. Raskin. Without objection.
    Mr. Roy. And I think it's an important point for the 
conversation, and I think at this point, I'll just move on and 
turn it over to you, Mr. Chairman. I just think it would be 
something to put in the record. Thanks.
    Mr. Raskin. Thank you very much for your opening statement, 
Mr. Roy. And now, I will present mine.
    Good morning to everyone. Welcome to all of our witnesses. 
Thank you for being part of this. Welcome to all of our honored 
guests out there and members of the committee who got up bright 
and early this morning to join us. Welcome to the third in a 
series of hearings that our Subcommittee on Civil Rights and 
Civil Liberties is conducting on the problem of confronting 
violent white supremacy. I'm delighted that we're holding this 
one with the National Security Subcommittee, and the question 
of how to reconcile political liberty with public safety is one 
that we've dealt with for a long time, and I look forward to 
the contributions of the National Security Subcommittee, the 
discussion.
    I should also say that there is parallel work going on in 
the Homeland Security Subcommittee on Intelligence and 
Counterterrorism, and I've benefited from the thoughts of 
Congressman Rose, who's the chair of that subcommittee.
    Look, the problem of violent white supremacy in America is 
obviously not newly minted, it is the Nation's original sin, 
and its forms have changed over the years. In recent years, 
we've seen the convergence of traditional violent racism with a 
global terror network that poses a clear and present threat to 
free societies all over the world.
    White supremacy's been a part of the American story since 
the Nation's founding, of course. In our prior hearings, we've 
recited the list of U.S. cities and towns that have been 
recently traumatized by white supremacist terror--Charleston, 
Charlottesville, Pittsburgh, and Poway, and so on.
    In August, a gunman motivated by hatred of Latinos, 
murdered 22 people with an assault weapon at an El Paso, Texas 
Walmart. Here's a map of white supremacist attacks between 
2011-2017.
    Over the last few years, we've seen a spike in such attacks 
around the world and a deepening of the relationship between 
the perpetrators of those attacks and the perpetrators of those 
taking place in other countries.
    The El Paso gunman's manifesto exemplifies the intricate 
new web of global white supremacy. The manifesto celebrated 
another infamous white supremacist attack in Christchurch, New 
Zealand, where a gunman, loaded up on race hate, assassinated 
51 people at two mosques earlier this year.
    The Christchurch killings inspired the murder in Poway. The 
Christchurch shooter himself took inspiration from racist mass 
murderers in Charleston, in London, in Quebec City, and in 
Sweden. Most recent perpetrators of white supremacist violence 
cite as inspiration the 2011 attack in Oslo, Norway, which 
killed 77 people, many of them children.
    Indeed, since 2011, at least one-third of white supremacist 
attacks have been modeled on an earlier deadly attack somewhere 
else in the world. The manifestos and tactics reveal that these 
are not isolated episodes. To the contrary, these incidents of 
spectacular violence are committed by embittered men who self-
radicalize online, and see themselves as participating in the 
launch of a global race war.
    They believe the wrong side won in World War II, and they 
are determined to resurrect Nazism and to bring genocide. The 
specific ideology unifying this transnational movement is known 
as the great replacement. Adherence to this philosophy claimed 
that a so-called white genocide is being perpetrated by 
nonwhite people. This was the meaning of white supremacists in 
Charlottesville chanting, ``You will not replace us. Jews will 
not replace us.''
    This paranoia is the common thread uniting these attacks 
motivated by hatred of immigrants, Muslims, Jews, and other 
nonwhite, Christian people. The rise of the internet has 
allowed this ideology to spread like wildfire today, and as it 
spreads, bloodshed is following in its wake.
    Another key philosophical link is that of acceleration, the 
notion that the quickest way to ensure the preservation of the 
white race is to spark a war by committing mass murder. 
Manifestos from around the world, including the El Paso and 
Christchurch massacres, make clear that the concept of 
acceleration is inspiring many to kill.
    The Trump administration has completely failed to recognize 
the threat that violent white supremacists pose to our public 
safety and to national security, and it must realign our 
counterterrorism strategy to confront this reality. After the 
savage attacks of 9/11 in 2001, our national security apparatus 
refashioned itself into a robust counterterror framework 
focused on Al-Qaeda, but as quick as we were to recognize the 
threat of violent Islamic extremism, we've been correspondingly 
slow to recognize the threat of global violent white supremacy.
    The results have been unsurprising. Testimony before this 
subcommittee in May established that from 9/11/2001 until 
today, 71 percent of violent Islamist inspired extremists in 
the United States were stopped in the terror planning phase, 
but with far-right extremists, the inverse is the case, and 
over 70 percent managed to successfully commit violent acts.
    Our failure to properly allocate resources to target racial 
terror is costing lives. Our prior hearings have called both 
the FBI and DHS to task for failing to develop a plan to 
address white supremacy, and I worry that recent developments 
have demonstrated that neither agency has successfully pivoted 
to face this threat.
    In August, we learned from late 2018 FBI documents that the 
FBI considered black identity extremists to be as high a 
priority as white supremacy extremists, but there's no data to 
support the FBI's baffling threat categorizations; indeed, 
quite the opposite. FBI Director Wray testified earlier this 
year that the vast majority of racially motivated violent 
attacks in this country are committed by white supremacists.
    Furthermore, before this very subcommittee, DHS vowed to 
have a strategic plan to address white supremacy by the 
summer's end. Late last night, after repeated inquiries from 
our committee, we learned that DHS is finally planning to 
release a strategy at some point today. It is long past due, 
and I hope it reflects the seriousness and the magnitude of the 
threat. In addition to the FBI and DHS, other national security 
agencies, like the National Counterterrorism Center, must treat 
transnational white supremacy as a global national security 
threat. This is what it is.
    In rising to the challenge of the moment, we obviously must 
not trade our civil liberties for our security, and we must 
ensure that we are leveraging our current law enforcement tools 
before rushing to create new ones. In the wake of the El Paso 
massacre, there has been a call for a domestic terror statute 
that would put domestic terror on the same legal footing as 
international terror. That debate is an important and a 
complicated one. It is not our focus today.
    Instead, we are here to discuss whether and how existing 
counterterrorism tools can be effectively mobilized to address 
the problem of white supremacy, and if so, what civil liberties 
protections will limit the potential for any overreach.
    I thank Mr. Roy and Mr. Lynch and Mr. Lynch for the 
partnership of his subcommittee on this issue. I look forward 
to a lively conversation today on addressing the serious new 
terror threat of global violent white supremacy.
    With that, I'm delighted to--let's see--and I should say 
that Mr. Hice is not here right now so we will proceed directly 
to witness testimony. I welcome the witnesses. We are joined 
today by Dr. Kathleen Belew, who's a research fellow at the 
Center for Advanced Study in the Behavioral Sciences at 
Stanford; Dr. Joshua Geltzer, who's the Director of the 
Institute for Constitutional Advocacy and Protection at 
Georgetown Law School; Katrina Mulligan, the managing director 
of the National Security International Policy Program at the 
Center for American Progress; and Candace Owens, who's the 
minority witness, who's the founder of Blexit and the host of 
the Candace Owens show.
    I'm going to ask all of the witnesses to please rise and 
raise your right hand if you would. Do you swear or affirm the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God? Let the record show 
that the witnesses all answered in the affirmative. Thank you. 
Please be seated. The microphones are sensitive, so please 
speak directly into them as you go. Without objection, your 
written statements will be made part of the record, and with 
that, Dr. Belew, you are now recognized to give an oral 
presentation of your testimony for five minutes.

 STATEMENT OF DR. KATHLEEN BELEW, ASSISTANT PROFESSOR OF U.S. 
       HISTORY AND THE COLLEGE, THE UNIVERSITY OF CHICAGO

    Ms. Belew. Thank you. As one of the only scholars who has 
studied this troubling phenomenon deeply, and who has 
historical knowledge of its patterns and drivers as well as the 
gaps in our knowledge, I hope I can be of use in helping you 
understand this threat, and how it might be effectively 
contained. This is a dark and troubling history that leads to 
grave concern about the present moment, but also gives us 
reason to hope we'll be able to find solutions. I have spent 
more than a decade studying the white power movement from its 
formation after the Vietnam War to the 1995 Oklahoma City 
bombing and into the present. This movement connected Neo-
Nazis, Klansmen, Skinheads, radical tax protesters, militia 
members, and others. It brought together people in every region 
of the country. It joined people in suburbs and cities and on 
mountain tops. It joined men, women, and children; felons and 
religious leaders; high school dropouts and aerospace 
engineers, civilians and veterans and active duty troops.
    It was a social movement that included a variety of 
strategies for bringing about social change, both violent and 
nonviolent; however, its most significant legacies have evolved 
from a 1983 revolutionary turn when it declared war against the 
Federal Government and racial and other enemies. The first of 
these strategies is the use of computer-based social network 
activism, which began in this movement in 1984, and has only 
amplified in the present. The second is an operational strategy 
called leaderless resistance, also from 1983-1984. This is most 
easily understood today as cell-style terrorism meant to bring 
about race war in which a network of small cells and activists 
could work in concert toward a commonly shared goal with no 
communication with one another and with no direct ties to 
movement leadership.
    Now, this was designed to foil prosecution, but leaderless 
resistance has had a much more catastrophic impact in clouding 
public understanding of white power as a social movement. It's 
allowed the movement to disappear, making the violence these 
activists commit seem to be the work of quote/unquote, ``lone 
wolf actors and errant madmen.'' Those kinds of designations 
leave very little room for enacting policy beyond mental health 
initiatives which will not address the scope of this problem.
    Indeed, understanding these acts of violence as politically 
motivated, connected, and purposeful represents a crucial first 
step toward a different response. The white power movement was 
and is a transnational movement characterized by the movement 
of ideas, people, weapons, money, and violent action across 
national boundaries. Furthermore, this is a movement that is 
dedicated to the violent overthrow of the United States. This 
is not just overzealous patriotism or the claim that whiteness 
should be integral to the American Nation or the American 
character.
    Indeed, after 1983, white nationalism in the United States 
is not interested in the United States when it talks about the 
Nation, but rather, the Aryan Nation. It hopes to unite white 
people around the world in a violent conquest of people of 
color. The interests of white nationalism were and are 
profoundly opposed to those of the United States. It is 
furthermore critical to understand the acts of mass violence 
carried out by this movement were not meant as end points in 
and of themselves, but were, instead, meant to awaken other 
activists to join in race war. They also represent more than 
individual crimes in an aggregate crime rate, because these 
actions worked not only to impact individuals, but to terrorize 
entire targeted communities.
    Despite this clear and present danger to American 
civilians, at no point in our history has there been a 
meaningful stop to white power organizing. Even in the wake of 
the Oklahoma City bombing, which was a white power plot and the 
largest deliberate American mass casualty between Pearl Harbor 
and 9/11, there was no durable shift in public understanding, 
no major prosecution that hobbled the movement.
    We have utterly failed to understand what this is or how to 
contain it. I can detail several attempts to do so by various 
entities, but the historical archive does offer us another 
possible response, which is truth and reconciliation projects 
that allow local communities to discuss racial tensions, 
identify areas of discord, and propose alternative 
interpretations of history and social inequality and more. 
Truly grappling with white power violence would involve a long 
look at the racial inequality foundational to many American 
communities.
    However, such a process could not hope to succeed in the 
absence of real changes to our surveillance of white power 
activity and the prosecution of domestic terrorism. Because 
white power activity relies on fundamental misunderstandings at 
every level, ranging from the individual to the media to the 
courts to the law, the response would have to be broad and 
multifaceted. An interagency collaboration could address the 
many scales, including the global, at which white power 
violence currently operates. I find great hope in our 
conversation about violent domestic terror now under way in 
these chambers and in our Nation and I hope to be of service in 
resolving this. Thank you.
    Mr. Raskin. Thank you very much, Dr. Belew.
    Dr. Geltzer, you're now recognized for five minutes.

  STATEMENT OF DR. JOSHUA A. GELTZER, DIRECTOR, INSTITUTE FOR 
CONSTITUTIONAL ADVOCACY AND PROTECTION, ON BEHALF OF GEORGETOWN 
                              LAW

    Mr. Geltzer. Thank you, Chairman Raskin, Ranking Member 
Roy, distinguished members of the subcommittees. Thank you for 
this opportunity to address the threat posed by violent white 
supremacy. We are here to discuss a new type of transnational 
terrorist threat that's posed by violent white supremacists, 
but it's helpful to begin by considering a familiar type, that 
posed by jihadists, like ISIS. Consider an astonishing 
achievement by ISIS, forging a transnational community of 
followers, and how white supremacists are emulating it. ISIS 
drew on its claim to have established a physical caliphate to 
build, largely through the internet, a global following. ISIS 
preyed on those vulnerable and detached from their communities 
by offering them the false promise of something bigger: ISIS's 
global community.
    Violent white supremacists are now doing something similar. 
They have used the same modern technologies ISIS exploited to 
create their own global community. And they've similarly done 
so with deadly consequences. There are key lessons we must 
learn from fighting one type of transnational terrorist threat 
and apply to this new type. The first, know thy enemy. The 
enemy Americans are seeing from Pittsburgh to El Paso has long 
been characterized in the United States as domestic terrorism, 
but that term has become largely outdated. The violence 
Americans are experiencing, like the ideology underlying it, is 
not really domestic any way; it's transnational. Consider, as 
Chairman Raskin indicated before, this sequence: Brenton 
Tarrant, the Australian, who killed 51 mosque worshippers in 
Christchurch, New Zealand, who cited as ideological inspiration 
the Norwegian, Anders Breivik, who killed 77 in 2011, as well 
as the American, Dylann Roof who killed nine in 2015. Tarrant 
was not a purely domestic terrorist of Australia or of New 
Zealand, he was inspired by a global movement of racially 
motivated violence.
    Then look at American Patrick Crusius, the El Paso shooter. 
Before his attack, Crusius announced online, in general, I 
support the Christchurch shooter and his manifesto. Then came 
Norwegian Philip Manshaus, who would have killed mosque 
worshippers in a city west of Oslo had he not been stopped by 
them. His online posting praised both Tarrant and Crusius. This 
simply is not terrorism domestic to any one nation alone. It's 
a global surge in violence inspired by white supremacy. And 
it's not only that the inspiration for each new act of violence 
transcends national borders, it's also the very structure of 
online communication today that facilitates a transnational 
network of those espousing and consuming this world view.
    Once we recognize violent white supremacy has gone global, 
the importance of adopting a transnational approach to 
addressing the threat becomes clear. For example, designating 
groups as foreign terrorist organizations facilitates criminal 
prosecution of those who provide material support to them and 
freezes financial accounts associated with such groups. Yet not 
one of the 68 entries on the State Department's list of foreign 
terrorist organizations is a white supremacist group. It's time 
for the U.S. Government to take a hard look at designating 
foreign white supremacist groups.
    Embracing the transnational approach would bring to bear 
another asset critical to the effort against jihadism, the 
intel work of NCTC, the National Counterterrorism Center. 
NCTC's fusion of terrorism-related intelligence has enabled 
analysis of jihadists groups that has, in turn, informed U.S. 
policymakers as they weigh tough choices in counterterrorism. 
NCTC's mandate has generally been understood to require it to 
focus on international terrorism, not so-called domestic 
terrorism. But we need NCTC fully in the game with respect to 
violent white supremacy.
    Understanding today's white supremacist threat as 
transnational would seem to facilitate NCTC'S greater 
involvement. And if intelligence community lawyers determine 
that a statutory amendment is needed for NCTC to take on a 
larger role, I would respectfully urge Congress and the 
President to provide that update to Federal law. Adopting a 
transnational perspective also means the intelligence community 
and law enforcement can bring to bear tools proven to help 
against international terrorism, like robust intelligence 
sharing with foreign partners and preventive law enforcement 
tools like sting operations. It means rejuvenating efforts to 
work with local communities to prevent radicalization in the 
first place.
    And for tech companies, it means policing their platforms 
to remove not just incitement to violence, but also, the 
ideological foundations that spawn such violence.
    There are also lessons to be learned about what not to do 
in confronting white supremacy, and I'll hit three very 
quickly: First, there's reason for caution against taking the 
aggressive step of creating a domestic analog to the foreign 
terrorist organization designation regime. That would raise 
tough constitutional questions and invite potentially fraught 
determinations about which groups should be listed.
    Second, augmenting efforts against violent white supremacy 
must not be used as an excuse for interfering with the lawful 
expression of political advocacy.
    It is the pursuit of political goals through violence that 
distinguishes terrorism, and preventing that violence must be 
the mission, not infringing on protected expression. Third, and 
finally, we must enhance efforts to address violent white 
supremacy, but we must not think that this is the only ideology 
that will attract global adherence through modern technologies 
and spur some to violence. Instead, we must anticipate that 
other ideologies are being preached in the dark corners of the 
internet, just as white supremacy was until it broke free.
    So as we update counterterrorism laws, policies, and 
activities, we should prepare to address all forms of 
politically motivated violence. Thank you.
    Mr. Raskin. Thank you very much for your testimony. And Ms. 
Mulligan, you're recognized for five minutes.

  STATEMENT OF KATRINA MULLIGAN, MANAGING DIRECTOR, NATIONAL 
SECURITY AND INTERNATIONAL POLICY, CENTER FOR AMERICAN PROGRESS

    Ms. Mulligan. Thank you for the opportunity to testify 
before you today. I want to align myself with the comments 
already made regarding the transnational nature of violent 
white supremacy, but once we recognize the international 
dimensions of this threat, we need to think about what should 
be done about it. In my written testimony, I lay out several 
specific ways the national security tools can be brought to 
bear against this problem, but before I describe some of those 
solutions, I will first say a few words about the central role 
that protecting civil liberties and civil rights should play in 
any solutions considered by this committee. Put simply, the 
government's efforts to counter domestic terrorism should not 
harm the communities we are trying to protect, or the civil 
liberties of Americans.
    The counterterrorism policies over the last two decades 
have unquestionably made us safer, and as I will argue, some of 
those efforts may prove useful in the counterterrorism fight 
ahead, but they have not been without flaws. In the name of 
protecting the homeland, some government approaches have been 
wrongly shaped by stereotypes and ethno-religious prejudices, 
and others have been ineffective and constitutionally 
problematic.
    Because of this legacy, the idea of using national security 
tools to counter this threat understandably concerns many in 
Muslim communities, communities of color, and in the civil 
liberties and privacy community. We should learn from them, not 
only because these are the communities that are most often 
suffering from the violence committed by white supremacists, 
but also because they have lived experiences with government 
counterterrorism efforts and have perspectives on what has and 
has not made us safer.
    We should also closely adhere to established limits on the 
domestic use of counterterrorism efforts and national security 
tools, including surveillance. In the recommendations I will 
make today, I am not advocating for the expansion of the 
government's law enforcement or intelligence authorities, and 
that's because much can be accomplished by creatively 
leveraging the tools and authorities these agencies already 
have. I would like to highlight just a few examples. First, the 
Department of Justice and the Departments of Homeland Security 
should lead an effort to develop a national strategy to counter 
the threat posed by domestic terrorism. I'm pleased to hear 
that DHS will be releasing a strategy today, but I will be 
looking to see whether that strategy acknowledges that violent 
white supremacy is currently the leading domestic threat to the 
homeland, as it should.
    DOJ should also expand and resource the office of the 
domestic terrorism coordinator. In addition, the U.S. 
intelligence community should explicitly identify and 
distinguish violent white supremacists as threat actors, and 
increase the priority assigned to them in the national 
intelligence priorities framework. As my colleague, Josh 
Geltzer, has argued, there's also much that the National 
Counterterrorism Center can do. First, they should work with 
international partners to investigate global links to white 
supremacist violence and provide a coordinated assessment of 
the threat posed by the movement, including any possible state 
sponsorships.
    Second, NCTC should produce an unclassified report drawing 
from the lessons learned over the last 18 years, identifying 
the drivers that move extremists beyond radicalization to 
commit acts of violence. The report should include an 
examination of how our political leaders can avoid enflaming 
politically motivated violence and play a constructive role in 
countering the threat. No political leader wants their words 
twisted to justify violence, and NCTC's work can help us 
establish empirical benchmarks so that we can enlist our 
political leaders in avoiding the kind of political rhetoric 
that leads to violence.
    Finally, I'd like to reflect on the subject of the hearing, 
and why violent white supremacy is worthy of the attention it 
is receiving. Republican lawmakers who survived a horrifying 
attack at a baseball practice a few blocks from my residence 
know well that politically motivated violence comes in all 
varieties and is no less murderous when it is inspired by the 
far left than when it is inspired by the far right. Politically 
motivated violence is worthy of serious attention whenever it 
occurs, regardless of whether the perpetrator is on the left or 
on the right.
    What distinguishes violent white supremacy from other acts 
of violence, though, is that it is inspired by an ideology that 
transcends national borders. It's conducted by attackers who 
situate their actions in a transnational context. It is global, 
and because of that, the Federal Government can and should 
prioritize it as a national security concern. Thank you.
    Mr. Raskin. Thank you very much, Ms. Mulligan.
    And Ms. Owens, you're recognized for five minutes.

  STATEMENT OF CANDACE OWENS, FOUNDER, BLEXIT, HOST, CANDACE 
                           OWENS SHOW

    Ms. Owens. Thank you, Chairman, for the opportunity to 
testify. I just want to testify just as a black American today, 
and I want to first start off by saying that white supremacy is 
indeed real, but despite the media's obsessive coverage of it, 
it represents an isolated, uncoordinated, and fringe occurrence 
within America. It's a fringe occurrence that is being used, in 
my opinion, by Democrats to scare Americans into giving up 
their votes to a party that can no longer win based on simple 
ideas, which is why we're seeing so many of these hearings 
back-to-back despite other threats that are facing this Nation. 
I want to reiterate that point.
    White supremacy is real, just as racism is real, but 
neither of these ideologies are real in this room. They have 
become mechanisms for the left to continue to call these 
hearings and to distract from much bigger issues that are 
facing this country, and which threaten minorities, much bigger 
issues that they are responsible for.
    White nationalism sounds a lot better as a threat than 
father absence. When are we going to call a hearing on the 74 
percent of single motherhood rate in black America today? My 
guess is probably never. Since Democrats are the author of that 
epidemic which leaves us, black Americans, 20 times more likely 
to end up in prison, nine times more likely to drop out of high 
school, and five times more likely to lead a life in poverty 
and to commit crime. White nationalism also sounds a lot better 
than illiteracy rates. I'm assuming we're never going to call a 
hearing on that, which is a real epidemic that is facing black 
Americans and minority Americans today; an epidemic, which by 
the way, has a lot closer of a tie to our Nation's history of 
white supremacy.
    Slave codes in the early 19th century made it illegal for 
black Americans to learn to read. Why? Because if slaves could 
read, they could access information. I don't believe that much 
has changed. On the most recent national assessment of 
educational progress, just 17 percent of black students scored 
proficient in reading at a 12th grade Level. 83 percent of 
blacks in America were not found proficient in reading at a 
12th grade level. Are we going to have a hearing on that? 
Probably not.
    White nationalism also sounds a lot better than abortion as 
a threat, which has resulted in the slaughter of 18 million 
black Americans since 1973, and points to a bigger crisis, 
which is the fact that the black population growth has 
stagnated in this country. The crisis and the major cities, 
like in New York, we have more black babies that are being 
aborted than born alive. If we're talking about preserving 
lives and we're talking about white supremacy, we should 
probably have a conversation about that. But today in this 
room, we're going to see Democrats try to connect the dots to 
white supremacy on the internet. So the question is why? So 
that people who have absolutely nothing to do with propagating 
white supremacy are censored, silenced, and controlled. What 
they are actually after is our permission to censor and silence 
and control any dissenting voices that go against the 
mainstream narrative that they wish to propagate.
    To give a glimpse into just how absurd and expansive a 
definition of white supremacy has become, I offer to the 
committee that I have been libeled and smeared by Democrat 
media cohorts as someone who supports white supremacy. You need 
but look at me to determine that that just isn't true. Why? 
Because I routinely say black people don't have to be 
Democrats. I am now considered somebody that is radicalizing 
people on the internet. What a radical idea? Black people 
waking up to the abuses in the Democrat Party, which has been 
instigated upon black America over the last 60 years.
    There have been sincere attempts, just so everybody knows, 
to censor me on social media because I am radical. YouTube once 
censored me for criticizing Black Lives Matter. They reversed 
the censorship and they apologized, and they called it a 
mistake. Facebook once censored me for calling out liberal 
supremacy as a threat facing black America. What I said 
specifically was that in any community where liberal policies 
reign supreme, you will find that black America is hurting. I 
stand by that assessment. Facebook reversed my censorship, 
apologized, and claimed it was a mistake.
    Of course, I'm fortunate that I have a big enough platform 
that when I get branded something extreme, I can reverse it, 
but the majority of Americans don't have that platform. The 
majority of Americans with dissenting opinions are silenced 
forever.
    Many words, which have once held very serious meanings, 
have come to take on a different definition over the last 
couple of years as Democrats have desperately tried to grapple 
with the fact that they are no longer able to manipulate 
Americans with broad claims and broad strokes of racism, 
sexism, misogyny, and the like. Words like ``racism,'' which 
today most nearly means anything or anyone that disagrees with 
a liberal, and terms like ``white nationalism,'' which today, 
and in this room and upon this floor, most nearly means that 
its election time, America. It's time for the left to do what 
they do best: Divide, distract, and hope to keep their most 
important voting bloc to their party, which is black Americans, 
angry and emotional and reactive enough to keep voting for the 
same party that has systematically destroyed our families, sent 
our men to prison, and deferred all of our dreams.
    I will close out by telling you that this is not going to 
work. America, and more importantly, black America, is waking 
up to the ploy. The bad acting, the faux concerns, these 
hearings. It's not going to stop black America from breaking 
the chain of victimhood, and it's certainly not going to stop 
me from being one of the loudest voices against it. Thank you.
    Mr. Raskin. Thank you so much for your testimony.
    Dr. Belew, let me start with you. I'm going to recognize 
myself for five minutes.
    In your prepared testimony, you stated that the 
perpetrators of white supremacist violence in a lot of the 
recent episodes are often portrayed as bad apples, or mentally 
ill or so on. And this gets us to a very difficult problem. I'm 
thinking about two relatively analogous episodes, one is of 
Omar Mateen, who was an admirer or a follower of ISIS, but he 
wasn't a member of ISIS, and apparently, he had no contact with 
them that anybody could determine. He hadn't been trained by 
them; he hadn't plotted with them, but he followed them online, 
and then he went to the nightclub--the Pulse Nightclub in 
Orlando and assassinated 49 people.
    Then the terrorist who killed 11 people at the Tree of Life 
Synagogue in Pittsburgh, he also radicalized on the internet as 
essentially a follower of different white supremacist groups, 
but I don't think he was a member of any of those groups. I 
don't think he was trained by any of those groups, and so--and 
we're far more inclined to describe someone like that as a 
loner, isolated, mentally ill, and I think Mateen was pretty 
quickly assimilated to the categorization of terrorists, but 
they were sort of in similar situations. What is the best way 
to think of people who self-radicalize, as you put it, online? 
They follow a terrorist organization or movement 
internationally, but they don't have formal membership ties, 
and then they go out and commit an act. Are they best seen as 
single, unstable individuals, or as part of a terrorist 
movement?
    Ms. Belew. So I think it actually helps to think about a 
different example if you'll permit me, but to go back to the 
example of Dylann Roof, who was the gunman at the church 
shooting in Charleston. He's another one who we could think of 
as having self-radicalized or radicalized online, but from his 
self-presentation, it's really clear that even if he never had, 
in real life, contact with these groups, he was using their 
symbols, their ideology, and their core texts to motivate his 
violence. Part of how we know that is he posed for pictures 
wearing a Rhodesian flag patch. Now, the Rhodesian flag was not 
a live entity during Mr. Roof's lifetime. That was a government 
that had switched over to Zimbabwe before his birth, but 
Rhodesia was enormously important to an earlier movement. It 
was the subject of a ton of activity at Aryan nations, a flurry 
of publication in white power presses, and it points to the way 
that Mr. Roof's ideology was informing his action. So what we 
have to do is understand the context in which these people 
operate and read the acts of violence as meaningful and 
purposeful to what they are trying to carry out.
    Mr. Raskin. All right. Ms. Mulligan, do you agree with that 
approach that we should see people in this situation as part of 
a broader movement, even if they don't belong to an 
organization?
    Ms. Mulligan. I believe we should, and I believe that's 
what we have done in other contexts.
    Mr. Raskin. That's basically the way we've treated people 
who've been inspired by ISIS or Al-Qaeda or any of the jihadist 
movements that can be found online.
    Ms. Mulligan. That is correct.
    Mr. Raskin. Is that right? And Dr. Geltzer, do you agree 
with that too?
    Mr. Geltzer. I do. I think the phrase ``lone wolves'' is 
dangerously misleading, because part of what attracts these 
individuals is the sense that signing up for this ideology, 
acting in its name makes them precisely not alone. It makes 
them part of this following that they join via the internet, 
first they follow it on open social media, then they sometimes 
move into encrypted more direct chats, and in some cases, they 
ultimately take up arms in the name of that.
    Mr. Raskin. So what have been the most effective techniques 
then of trying to address the problem of people who, in a 
psychological sense, might be described as isolated, 
antisocial, apart from the world, but who go online and then 
use the existence of all of the propaganda online to self-
radicalize and to self-motivate to go out and kill? How do we 
deal with that problem while respecting the basic freedom of 
discourse that's on the internet?
    Mr. Geltzer. One of the major findings of law enforcement 
and the intelligence community is that even as these sorts of 
individuals consume this material alone, there is, more often 
than not, somebody in their lives--a parent, a teacher, a 
community member who sees some sort of change. They may not 
understand exactly what the change is, but they see something 
and it worries them. And to have an open channel where those in 
the community understand what to do about that, that can be 
crucial at taking this in a different direction other than 
ultimately violence.
    Mr. Raskin. Great. Dr. Belew, I remember when there was a 
bit of a controversy several years ago about people using the 
phrase ``radical Islamist terror.'' I don't see why anybody had 
any problem uttering that. Today, though, it seems a lot of 
people have the problem uttering the phrase ``violent white 
supremacy'' or ``violent white nationalism.'' Is it important 
for public figures and Members of Congress, is it important for 
people in academia and journalism to identify and to name the 
problem?
    Ms. Belew. Yes. And I think part of it is something that my 
copanelist was mentioning about these kind of diffuse 
definitions of racism and white supremacy. The definitions are 
actually really important, because what we're talking about is 
not just kind of the broader canvas of race relations that we 
all inhabit from day-to-day, we're talking about a small group 
of fringe actors who is intent on violence against their local 
communities, against the United States, and against the world 
at large. These actors are not simply kind of run-of-the-mill 
ideologues. They're violent actors who are intent on taking 
action. Now that is not the same thing as freedom of speech. I 
think reasonable people can agree that violent action against 
civilians represents an enormous social problem for every 
political persuasion.
    Mr. Raskin. Thank you. My time's expired. I'm going to 
recognize Mr. Roy for his five minutes of questioning. Oh, I'm 
sorry. Forgive me. I'm going to go to Representative Wasserman 
Schultz from Florida and then I'll come back to you, Mr. Roy.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Ms. Mulligan, you testified that we need to know more about 
how inflammatory rhetoric by political leaders can influence 
radicalization and white supremacist violence and, you know, 
for me, that brings up more recent current, what I consider 
potential incitement, like when the President of the United 
States insisted that there were good people on both sides at a 
deadly Neo-Nazi rally in Charlottesville.
    I think about the President smiling at a rally in Florida 
when an attendee suggested border patrol should shoot 
immigrants crossing the border, and the President's nearly 
daily rhetoric and policy that demonizes and dehumanizes 
immigrants and people of color. What does the academic research 
show us, and this is actually either for--either or both of Ms. 
Mulligan or Dr. Belew, what does the academic research tell us 
about the impact of inciting social divisions and how that can 
impact radicalization?
    Ms. Mulligan. Would you like to take that one first?
    Ms. Belew. Go ahead.
    Ms. Mulligan. Well, I can speak--I will, of course, defer 
to Dr. Belew on the academic research, but one of the things 
that I've been recommending is that we've learned a lot over 
the last 18 years of looking at the terrorism problem, about 
what causes people to move along the spectrum from becoming 
radicalized to them being mobilized to actually committing acts 
of violence. And there's a group at the National 
Counterterrorism Center called the radicalism and extremist 
messaging group that does fantastic work on this that's helped 
policymakers better understand the nature of this problem.
    We can and should, within existing authorities, leverage 
that work to understand more about the extent to which the 
activities of our political leaders can or are influencing a 
rise in violent white supremacy, and we ought to learn more 
about the extent to which it agrees with, or not, the academic 
research on this topic, which certainly suggests that that's 
the case.
    Ms. Wasserman Schultz. Thank you. Dr. Belew?
    Ms. Belew. So the history of the KKK, which is the 
organization for which we have the longest, kind of, historical 
data, shows that all of this activism really profits from 
opportunistically mobilizing whatever existing scapegoats are 
available in a given time and place. So if you think about the 
Klan in the 1920's, which is the biggest one, right? That's the 
one that had 4 million people, 10 percent of the state of 
Indiana and the one that was sort of seen as mainstream and 
pro-American.
    That Klan we remember as being antiblack and anti-Semitic, 
but it was also anti-Mexican on the border, it was anti-
immigrant in the northeast where there are a lot of immigrants, 
it was antilabor in the northwest where there was a lot of 
labor dispute, and anti-Catholic in Indiana where Notre Dame 
University was. So what we have to remember is that this is the 
kind of activism that works by inflaming local tension, and 
kind of riding the wave of prevailing public perception.
    So any time we see these moments of broadly accepted anti-
immigration, broadly accepted calls to violence, there's going 
to be ramifications within these fringe groups.
    Ms. Wasserman Schultz. Thank you.
    For Dr. Geltzer and Ms. Mulligan, you both mentioned the 
growing influence of foreign powers, including, and especially 
Russia, in promoting white supremacist ideologies.
    Dr. Geltzer, can you describe a bit further how Russia is 
fueling white supremacist ideologies around the world? And Ms. 
Mulligan, can you share your perspective on what you think 
their objective is? We had Russia obviously interfere in our 
elections in 2016, in part, by drawing on deep-seated racism in 
our country and using that to sow division and spread 
misinformation.
    Mr. Geltzer. So Russia is fueling this movement in at least 
two ways: One is actually on the ground, especially in a place 
like Ukraine, where Russian groups, like the Russian imperial 
movement, and its paramilitary unit, the imperial legion 
volunteer unit, are actually training foreign fighters to fight 
in the mantle of white supremacy. That's on the ground.
    Then you have what's happening online, where Russian 
disinformation efforts, which happen in all forms, but in this 
area are deliberately stoking anti-immigrant sentiments, not 
just here, but in countries across Europe. It has been 
particularly well-documented in Sweden. And for more on this, I 
would commend Ali Soufan's recent testimony before House 
Homeland where he laid out some of these connections to Russia, 
in particular, and the state role in driving this.
    Ms. Wasserman Schultz. Thank you. And should we consider 
weaponized white supremacy, Ms. Mulligan, or any of the three 
of you, weaponized white supremacy a key threat to our election 
security?
    Ms. Mulligan. Absolutely. To the extent that what Russia or 
any other foreign actors attempting to do by sowing division 
within our society, we should absolutely consider it a threat, 
and I, you know, commend some of the technology companies for 
beginning to take that threat seriously, but obviously much 
more needs to be done.
    In the end of the day, this is not a problem that any one 
part of the Federal Government or the private sector or civic 
society can solve on its own. We're going to have--much as we 
did in the last 18 years since 9/11, we're going to have to 
work together with those communities and enlist those partners 
in finding solutions.
    Mr. Raskin. The gentlelady's time is expired. Thank you 
very much. I go to Representative Green for his five minutes.
    Mr. Green. Thank you, Mr. Chairman. This is obviously very 
poignant for me, for those of you who know about Chattanooga, 
and the terrorist attack that happened there. The young man was 
born, I believe, in America, and radicalized online, and then, 
you know, basically targeted our recruiting station and the 
Navy Reserve station killing six great American patriots.
    This is, obviously, very important subject, but very near 
and dear to our heart, because it's happened in Tennessee. You 
mentioned, Ms. Belew, about understanding the scale of this, 
and I'd be interested to hear from you, and I know these are 
hard questions to answer, but, you know, this is just sort of 
my knee-jerk, well, how big is the problem? And I'd like for 
you, if you could, to comment both on white nationalism and on 
what struck Tennessee, which was Islamic terrorism. In the 
white supremacist groups, how many people are actually willing 
to do a terrorist attack? What's that percentage? And then 
what's the percentage that is okay with it if they do? Because 
that's kind of how we look at the Muslim terrorists. What is 
the percentage that would actually put a suicide vest on, and 
then what's the percentage who thinks that's okay, if you could 
comment on those four, I guess, scales?
    Ms. Belew. Sure. Well, first, I think it's helpful to think 
about what this movement is and how it works when we're 
thinking about its size. So in the period that I focused on in 
my research, we're talking--which is the 1980's, we're talking 
about a movement that's organized kind of in concentric 
circles. In the middle are what we would think of sort of as 
hard-core activists who, like, live and breathe this movement. 
Those are the people who can, under the right circumstances, be 
pulled into a cell and then carry out violent action. That's 
only like 10,000 to 25,000 people. It's a very small group.
    Outside of that, though, there's another 150,000 people. 
They do things like purchase newspapers, subscribe to the 
literature, come out for public rallies, stuff like that. And 
outside of that, there's another 450,000 people. They don't, 
themselves, buy the newspaper, but they regularly read the 
newspaper.
    Then outside of that is the number that scholars don't 
have. That's the number of people who would never read a 
newspaper that says, you know, official newspaper of the 
Knights of the KKK, but who might agree with the ideas that are 
presented in it, especially if they come in through social 
relationships.
    So that model of organizing does two really important 
things: First, it moves people from the mainstream into the 
center; meaning, into the more fringe, more violent capacity. 
It also pushes ideas from the center out. So when we're 
thinking about that aggregate number, we're talking about 
something that's as big as some fringe movements that are much 
better understood, like the John Birch society. Similar 
numbers, but John Birch, at no point, was, you know, carrying 
guns and attempting to overthrow the government.
    Now, this question about the percentage that are violent 
and the percentage that are okay with it and the relative 
comparison with jihadism is a really interesting question. The 
thing is, we don't have the data. So one of the things that's 
really important to do is collect and aggregate that 
information. I can tell you that the historical archive shows 
that in the aftermath of the Oklahoma City bombing, which a lot 
of people, even in the white power movement, thought was an 
abhorrent act of violence, mostly because of the death of the 
white children there in the daycare center, even still, there 
was an increase in militia group membership and numbers in the 
immediate aftermath of that attack. Now that would signal to me 
as a historian that people were not decrying it at that moment, 
but actually were okay with that violence in some capacity, and 
many people were outright supportive in their own writings.
    Mr. Green. Thank you. I yield the remainder of my time to 
Congressman Roy.
    Mr. Roy. I thank my colleague from Tennessee and appreciate 
those comments, Dr. Belew.
    Dr. Geltzer, I was intrigued by a few of your statements as 
well, and would like you, if you would not mind, to shed a 
little light on--you talk about focusing on the foreign 
terrorist organization. I think you answered the question to my 
colleague from Florida a little bit on this. Quickly, is there 
an organization that you would say there are adherents here in 
the states to organizations that are specifically calling for 
action and what that looks like? That's question one. Question 
two is, on your point about constitutionally protected 
statements and thoughts regardless of how hideous they are, and 
the difficulty that we have--so, it is a lot easier for us to 
go after organizations and entities, right, and I think that's 
what's behind going after ISIS, Al-Qaeda, et cetera, and any of 
the affiliated organizations, and we're pretty good at that.
    But in identifying lone wolves, regardless of whether you 
think it's a good idea to define a category of lone wolves, 
when we go after lone wolves, it's hard, right? We're not as 
good at figuring that out an adherent to an ideology, whether 
it's white supremacy or whether it's jihad or anything else, 
right? Finding the lone wolf out here that is clearly carrying 
out some of these horrible acts, can you just comment on that 
balance of constitutionally protected speech and how we can 
encourage law enforcement to go after bad guys regardless of 
their ideology, but how ideology feeds into that action? Sorry. 
I went too long.
    Mr. Geltzer. Two hard but important questions. Let me take 
a stab at the first initially. When I think about white 
supremacist entities that might qualify as foreign terrorist 
organizations, the place that I actually look is the current 
national strategy for counterterrorism, which I think is a very 
strong document overall issued by the Trump administration last 
year, and it names two particular groups: a Scandinavian group 
called the Nordic Resistance Movement; a British group called 
the National Action Group. And it talks about them in the 
context of the transnational network of white supremacy we've 
been discussing here today, and it points to them as having 
links to Americans, including potentially threatening 
Americans.
    Now, the criteria for foreign terrorist organization 
designation is particular, we could go through what it is. It 
seems to me that language in an official government document, 
at least, suggests that those two might qualify, and it's worth 
designating them if they do because then financial institutions 
create a blinking red light around assets to the extent anyone 
in America or anyone in law enforcement can get its hands on, 
is trying to provide material support to them. It allows 
prosecutors to have that tool in the tool kit.
    So we'd know more, in other words, if we went down the road 
of designating only groups that actually qualify and then 
empowered those using financial and law enforcement tools to 
make use of that.
    Quickly, if I may, on the idea of individuals, this is the 
hardest form of counterterrorism in any context, whether it's 
ISIS-inspired, white-supremacist-inspired. Those individuals, 
especially like an Omar Mateen, who seem to sit and stew in 
front of a computer and then act. That is why I turn to my 
earlier answer to the idea of ensuring the communities have a 
place to turn when they see something changing.
    It also leads to law enforcement respecting speech, but 
also doing what it has done effectively in the context of 
jihadism, which is using informants and sting operations. 
They're sometimes controversial, but there are limiting 
principles in DOJ and FBI guidance for how they can be used and 
where it's appropriate to use them in this context. I do think 
that they have prevented attacks in that other context. I hope 
that's helpful.
    Mr. Raskin. Thank you very much.
    Mr. Rouda, you're recognized for five minutes.
    Mr. Rouda. Thank you, Mr. Chairman, and thank you for 
convening this meeting.
    It was just a few months ago that I was here at a committee 
meeting, and during a break, I had the opportunity to meet 
Sydney Walton, who's a hundred years old, a World War II vet, 
who fought with many other Americans to defeat Nazism, and many 
did not come back and paid the ultimate price to our country. 
And it's outlandish to think that we are here almost 75 years 
later from the defeat of Germany in World War II, fighting 
white supremacy once again.
    And this is a bipartisan issue. It certainly should be a 
bipartisan issue, and I'm glad to see that it is. And it's not 
just white supremacy; it's extremism, period. We need to fight 
it on all fronts, but we have seen growth in white supremacy. 
There's approximately a thousand hate groups located in the 
United States, spurring out defamatory information, and 
unfortunately, a lot of that is affecting our kids.
    In my district, in Orange County alone, we've had numerous 
incidents, from an African American student in my community who 
has periodically had watermelons thrown on the driveway, to a 
group of students having a party with a swastika made out of 
beer cups, to Nazi posters being posted at the schools, to 
graffiti on temples, to students that are doing goose-stepping 
and salutes while on school grounds and having it filmed and 
sharing it. So we know that the radicalization is happening. 
And I think the big concern we have for many of us is how the 
internet is playing into that process. In fact, The Daily 
Stormer has stated publicly that, quote, my site is mainly 
designed to target children, unquote.
    Dr. Belew, can you describe how white supremacists are 
using the internet and social media to radicalize our children?
    Ms. Belew. Absolutely. So this is one of the interesting 
places where what seems very new to us in the current moment is 
actually something with deep historical roots. So this movement 
started getting online on the proto-internet in 1983, 1984, 
with a series of coded message boards called Liberty Net. Now, 
those message boards included the things that they needed for 
immediate race war, like assassination lists, infrastructure 
target lists, and ideological content, but it also included 
things like recipe exchanges and personal ads. So, effectively, 
this movement has been using social network activism to move 
people around and organize this for decades before Facebook. We 
are several----
    Mr. Rouda. And this is a movie we've seen before. It's the 
same thing that ISIS did as well, correct?
    Ms. Belew. Yes, absolutely. My only argument with that is 
that I don't think they took this from ISIS. I think they've 
been doing this since the early 1980's completely on their own.
    Mr. Rouda. But what's the answer to address it? How do we 
address the use of social media to stop the radicalization of 
our children?
    Ms. Belew. I think that's a really great question. I think 
that one of the things that would help is broadening the 
interagency conversation around this issue, because it occurs 
to me that the place where the conversations about social 
network content are happening is at the FTC. And I'm on 
fellowship at Silicon Valley this year, so I've been talking to 
a lot of the tech people. There's all kinds of algorithmic 
tools, language detection tools, and other kinds of things we 
can do to get into those internet chat rooms and to look at the 
person who's by themselves in front of the computer.
    But the stuff you're talking about is bigger than that, 
because when we're talking about the stuff like postering 
campuses, white student union, all of that is from the earlier 
playbook. And what we know from the history is that that kind 
of public-facing stuff that's targeting children has been 
matched historically by a big paramilitary underground that 
includes things like taking those children to paramilitary 
training camps, outfitting them with weapons, and that's how 
they turn people into soldiers for this movement. People in 
their teens are enormously recruitable, and I think it's 
absolutely an area of focus.
    Mr. Rouda. And, Dr. Geltzer, let me--thank you for your 
answer.
    Dr. Geltzer, let me ask you, look, we know that some 
radicalization literally happens at home. And for some, though, 
many times the parents are--and family members are extremely 
surprised to find that their brother, their sister, their 
child, has been radicalized. Are there signs that we should be 
looking for? Are their ways that we can interject as parents or 
siblings to try and prevent the radicalization of a loved one?
    Mr. Geltzer. I do think there's a broader role for digital 
literacy in our society that would at least be somewhat helpful 
with respect to this and, frankly, other problems that our 
Nation faces. There are other countries that have invested in 
this idea--Estonia, France is now catching up--in trying to 
ensure at an early age that young people, who inevitably are 
using digital devices already, have some sense of what not to 
believe, at least what to be skeptical of. Because the internet 
is never going to be a totally curated place. It's going to 
have some disinformation, misinformation, and even exhortations 
to violence.
    But to empower, especially the youth, to at least be 
skeptical, to treat that skeptically and to take it from their 
digital experience to their parents, to their real-world 
connections and ask about it, and engage in a conversation, I 
think that's an important direction to go in.
    Mr. Rouda. Thank you. And I----
    Ms. Belew. May I add something?
    Mr. Raskin. The gentleman's time is expired, but you can 
answer the question if you want to say a word.
    Ms. Belew. Thank you.
    I just wanted to add that another place that this 
dovetails, there's a conversation about general sort of--
general mass attacks and the role of young teen boys 
particularly in being drawn into kind of mass shootings, partly 
through internet activity. Health and Human Services might 
consider doing something like giving grants to nonprofits like 
Life After Hate and the Free Radicals Project, which are 
staffed by people who have left the movement after their own 
radicalization and know firsthand how it works and how to reach 
people who are right now in these groups or who might be pulled 
in.
    Mr. Raskin. Thank you.
    Mr. Rouda. Thank you, Mr. Chairman, and thank you again for 
convening this meeting.
    Mr. Raskin. And thank you, Mr. Rouda.
    I recognize the ranking member, Mr. Roy, for five minutes.
    Mr. Roy. I thank the chairman very much.
    One quick question for Dr. Geltzer or Dr. Belew. Do we have 
a number of people that we believe have been killed as a result 
of something that you could define as white nationalism or so 
forth, say, in 2019 or 2018? I've looked at the--you know, 
ADL's got some stats, like 50, or whatever. It depends on how 
you define it. Do you all have an answer for that, just 
quickly?
    Mr. Geltzer. I don't have the exact number. I know some who 
keep these stats recently indicated, as I think the chairman 
mentioned, that post-9/11 the number in this category recently 
exceeded the number that we generally think of as in the 
jihadist category. But even those stats, the numbers are 
difficult. Certain motivations for attacks are difficult to 
categorize.
    Mr. Roy. Yes. And that's, I think--I wanted to come back to 
you, Ms. Owens, about some of my concerns here in terms of 
perspectives. So we all share a desire to go fight that, right? 
But then perspective, in terms of what we're talking about, in 
terms of crimes, right, if we look at what's going on in 
Chicago right now, right, and, Ms. Owens, I wanted your 
perspective on this. I mean, some of the numbers are pretty 
astounding, right? I mean, we've had 300 and something murders 
in Chicago this year. The number varies and it changes 
literally by the day, sadly and tragically. And I'm looking at 
some data here--I don't know if it's a hundred percent 
accurate--that black victims of the murders are 291 murders in 
Chicago just this year alone. And you can go through, you know, 
different data points, black homicide victimization. I've got a 
stat here, 13 percent of the U.S. population, yet 51 percent of 
homicide victims.
    Can you speak a little bit about that and about the reality 
of that and some of the policies that lead to that and your 
perspective on that element of crime?
    Ms. Owens. Certainly, which is why I wanted to bring that 
up, because presumably, if we're going to be having a hearing 
on white supremacy, we are assuming that the biggest victims of 
that would be minority Americans, and presumably this hearing 
would be to stop that and to make sure that we can preserve the 
lives of minority Americans, which--and based on the hierarchy 
of what's impacting minority Americans, if I had to make a list 
of 100 things, white nationalism would not make the list. And 
we don't see hearings on those bigger issues.
    You brought up the inner city communities, which is a huge 
issue, black-on-black crime, the breakdown of family, I think, 
is the No. 1 thing that's contributing to that, and we never 
hear anybody talking about what happens when you remove a 
father from the home. In fact, I would argue that right now, we 
have a social environment that is hostile toward men and does 
not inspire masculinity or being a man and what it means to be 
a father figure in a household. Black Americans are definitely 
suffering from the breakdown of the family.
    And when I say that liberal policies inspire that, what I 
mean to say is that via the welfare system, we are quite 
literally seeing the incentivization of bad behavior. When you 
know that your family gets more money--as a single mother, you 
will get more money if you don't marry the father of your 
children, you're not going to marry the father of your 
children. I've seen this firsthand.
    And black-on-black crime is a huge issue in America right 
now, but people don't like to talk about that. It seems, well, 
let's talk about the smaller issues and not the big issues that 
are facing black America. We saw this same sort of a narrative 
in 2016 when police brutality became at the forefront of the 
discussion. And if you were paying attention to politicians, 
you would have thought that if you were a black American, you 
couldn't walk outside without being shot by a police officer, 
when, in fact, you had a higher chance of being struck by 
lightning as a black American in 2016 than being shot unarmed 
by a police officer.
    The truth is that leftists and Democrats don't want to see 
these issues fixed in black America because then they can't 
stump on those issues. You know, we see this rhetoric every 
four years, ahead of an election cycle, get drummed up. We 
heard--Chairman Raskin in his opening statement mentioned the 
Trump administration is doing nothing, and that really is the 
nucleus of what we're seeing here today. We are trying to see--
we're seeing an attack on an administration, an attack on 
conservatism ideals ahead of an election cycle. There's no real 
effort to fix the issues that are in black America, the things 
that are hurting minority America because, believe me, they 
don't want those issues to be fixed.
    Mr. Roy. Ms. Owens, you said that this issue that we're 
talking about here today, which we all agree obviously is an 
important issue, to root out crime and root out criminal 
organizations and activities and figure out how to target 
criminals, bad actors, et cetera. You said it wouldn't make the 
top 100 of the things that you're concerned about as a black 
American, concerned about black communities in America. What 
would? You can't rattle off all 100, but in the time I've got--
--
    Ms. Owens. Father absence, the education system, and the 
staggering abortion rate, as well as illegal immigration, 
which, you know, the United States Commission of Civil Rights, 
when they were actually doing work in 2008, came out with a 
report and told the truth, which is that illegal immigration 
harms black Americans first and foremost. We are the ones that 
are meant to compete with illegals for jobs, and they are 
flooding our communities with crime and violence. Black 
American men between the ages of 18 and 22 are harmed by 
illegal immigration, but just saying that perspective is 
considered racist, and it's not.
    Mr. Raskin. The gentleman's time is expired. Thank you very 
much.
    And I recognize the gentlelady from the Second District of 
Illinois, Ms. Kelly.
    Ms. Kelly. Before I ask my questions, I have to--my mic's 
on. Before I ask my questions, I just have to make a comment 
about where I represent, Chicago. And there are many reasons 
why there is gun violence. So we do need to invest more, you 
know, in various communities, but the other reason is because 
we don't have the laws that we need. Chicago, as people like to 
say, oh, they have strong gun laws, but most of our guns don't 
come from the Chicago--from Chicago. It's because of the lack 
of national trafficking laws, straw purchasing, we can't even 
get a background law passed. So I just want to clear the record 
there. There are many----
    Mr. Raskin. Thank you, Ms. Kelly. Will you just speak 
directly in your microphone? We seem to be having some kind of 
sound difficulty. If you would.
    Ms. Kelly. Okay. Now to my questions.
    Mr. Raskin. Apparently that one is sort of dysfunctional. 
So if you could talk into Mr. Rouda's. And thank you, we'll 
account for the time, yes.
    Ms. Kelly. Do I need to repeat what I just said or just go 
to my questions?
    Mr. Raskin. If you want to just restate the point that you 
were making about gun violence generally so we can all hear it.
    Ms. Kelly. Yes, just that we've--I've been here going into 
my seventh year, and it's been very difficult to get any 
legislation passed about gun violence. And, yes, Chicago has 
strong laws, but no one else around us does. The majority of 
our crime guns come from Indiana and Wisconsin. And until we 
pass some national laws to deal with this, there are going to 
be those issues. And, yes, we do need to invest in the 
communities. There's not one reason, you know, why it happens, 
but I have to make that clear, and that we are having hearings, 
finally, about gun violence, about maternal mortality, and on 
and on and on. So we are doing those things now.
    So to my questions. Ms. Mulligan, what concerns do you have 
about white supremacists, extremism, in the ranks of law 
enforcement and intelligent communities? And I will add that I 
come from a law enforcement family, so nothing against law 
enforcement.
    Ms. Mulligan. So it's clear that the threat of violent 
white supremacy is not limited to those who are outside of our 
law enforcement and national security communities. You 
mentioned, you know, law enforcement and police departments. I 
think another place where we see signs of radicalization that 
are troubling is actually in our Active Duty and returning 
members of the military. And I think one of the things that 
makes it, you know, that makes it quite difficult to address is 
that those are the people who are supposed to be making--you 
know, keeping us safe. And we should have absolutely no 
tolerance for those types of ideologies in law enforcement, in 
the intelligence community, in any part of the Federal 
Government, to include the military.
    And I do believe that most of those types of employment 
situations have rules and regulations that prohibit it. The 
question is whether they're being adequately enforced. And I 
think that more should be done in that arena.
    Ms. Kelly. Thank you. I ask just because of the Plain View 
Project that we heard so much, you know, on the news about. 
Which agencies specifically have a role to play in helping 
address this problem, and what should they be doing? Ms. 
Mulligan, Dr. Belew?
    Ms. Mulligan. Yes. Thank you for the question. There's 
actually quite a lot that many departments and agencies can do, 
but I actually will start with the White House. The National 
Security Council staff should actively implement last year's 
National Strategy for Counterterrorism, which Dr. Geltzer 
earlier mentioned. It identifies domestic forms of violent 
extremism as terrorist threats, and in driving department and 
agency action, it really ought to have the leading role.
    Some of the other departments and agencies that have a role 
to play include the Department of Justice, the Department of 
Homeland Security. Unfortunately, DHS, notwithstanding the 
strategy that apparently is being released today, has recently 
decreased funding and resourcing for this problem.
    The FBI, obviously, has a very large role to play, as does 
the U.S. intelligence community, particularly where the 
transnational threats are involved. The National 
Counterterrorism Center, as we previously mentioned, can and 
should do more within existing authority, and there are 
questions that ought to be explored about whether more is 
necessary there as well. But even the Department of State has a 
role to play.
    Thank you.
    Ms. Kelly. And, Dr. Belew, in your research, did you find 
any links between white supremist groups or ideologies and 
individuals serving in official law enforcement roles?
    Ms. Belew. So I don't have the archive to talk about law 
enforcement, but one thing that did come up is that if you 
track the surges in clan activity, it's a group that has big 
ebbs and flows over time. It always aligns with the aftermath 
of warfare. And let me be really clear about this. I'm not 
saying that that means the clan is made of veterans or that 
veterans are, you know, more likely to anything related to 
this. We're talking about a tiny, tiny, tiny, tiny percentage 
of returning vets and Active Duty troops. But what we do find 
is that this movement is misusing those servicemembers in order 
to augment its violent capacity against civilians.
    I study things like, one of these groups obtained tons--
literal tons--of stolen military weapons and material from the 
Army post at Ft. Bragg. They carried out paramilitary training 
camps all around the country using the expertise of Active Duty 
troops. And after 1983, participation in this movement is 
fundamentally opposed to the oath of induction, because you 
cannot be serving to protect the United States from enemies 
foreign and domestic at the same time that you are trying to 
overthrow it. It's a fundamental problem within the services, 
and the DOD absolutely needs to be part of monitoring and 
reporting this activity. I think its reporting efforts probably 
are either miscounting or misreporting what's happening.
    Mr. Raskin. Thank you.
    Ms. Kelly. Thank you.
    Mr. Raskin. The gentlelady's time is expired.
    I recognize our friend from Louisiana, Mr. Higgins, and I 
think votes may be called after that.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I thank the panelists 
for appearing before us today.
    We all condemn any form of supremacy, white supremacy, all 
forms of domestic terrorism, and hate crimes. I was born in 
1961, seventh of eight children. I was in the second grade, 
public school, when our school was integrated. I am a 58-year-
old product of the American generation that has struggled to 
transcend racism in America. I believe in our country. I wear a 
band upon my wrist that says ``redemption.'' It doesn't say 
perfection. Redemption is a journey, not a destination. All of 
us are on that journey, and I believe that our Nation is on 
that journey. I believe that our Lord created this in his own 
image. On a spiritual level, we are one, and yet as a Nation, 
we've largely rejected traditional American values: family 
unity, discipline, and prayer.
    As a street cop for many years, prior to becoming a 
Congressman, I dealt with white supremacists on the street 
level. I dealt with black supremacists on the street level. I 
dealt with racism and bigotry in every conceivable 
manifestation. It was a common thread amongst those children of 
God that I interacted with. They were broken inside. They were 
broken inside. This is what we must address. America suffers a 
generational deterioration of spirit. Only by courageous 
interaction, by discarding extremist reaction to extremist 
action, by embracing humility and honest, candid communication 
can America heal itself.
    Ms. Owens, I'll be speaking at the NAACP annual state 
convention in Louisiana one week from tomorrow. Could be argued 
that I'm a quite unlikely keynote speaker at that gathering, 
but I shall deliver a candid and unscripted message from my 
heart and from bended knee, as an American that recognizes that 
our Nation has suffered a failure of spirit, that our Nation is 
on a journey.
    I would ask you, madam, in my remaining time, what message 
would you hope to hear me deliver to my brothers and sisters in 
Louisiana one week from tomorrow, an address which I believe 
should be reflective of our effort as a Nation, to bridge the 
divides that falsely separate us, to embrace the fact that 
we're created in God's own image? What message would you have 
me share, good lady, and I shall listen?
    Ms. Owens. That's a beautiful question. I would say if I 
was in that audience, what I would want to hear is just a 
message of hope. I think that what's been taken away from black 
America is our sense of pride. We've allowed rhetoric and 
policies to tether us to the government. And I love that you 
opened your statement talking about God and the family, because 
those are the things that we used to value first and foremost 
in the black American community, and as government grew in the 
1960's, all of that was pretty much taken away from us.
    I would remind them to consider who is really the author--
who are really the authors in society today of trying to 
separate us as a society. I personally believe it's the media. 
I believe it's when somebody sitting in--a Congress Member sits 
down and perpetuates the lie that our President said there were 
good people on both sides without mentioning that he said, and 
I'm not talking about white nationalists. It's important for 
black America to begin thinking rationally and not emotionally 
and to no longer allow ourselves to be used and abused and lied 
to by a party and policies that have not served us for the last 
six decades.
    And I would ask you to ask the one question, what do they 
have to lose, and I think the answer is nothing.
    Mr. Higgins. Thank you for your counsel, ma'am. I shall 
take it to my heart.
    Ms. Mulligan, Dr. Belew, Dr. Geltzer, thank you for 
appearing today.
    Mr. Chairman, thank you for allowing me to speak. I yield 
back.
    Mr. Raskin. Thank you, Mr. Higgins, and please be sure to 
share your address with us after you give it.
    We're going to call a recess, subject to the call of the 
chair. We will return immediately after final floor votes are 
called, and that should be in about 45 minutes. I know that Mr. 
Hice is here for his questioning, as the ranking member of the 
National Security Subcommittee, and I know that Mr. Lynch is 
coming back and wants to question everyone. And there are 
several other members who will be joining us then. So everybody 
stay tuned, and the committee will now stand in recess.
    [Recess.]
    Mr. Raskin. All right. The subcommittees' hearing will come 
to order and resume.
    It is my pleasure to recognize Chairman Lynch for five 
minutes.
    Mr. Lynch. Thank you again, Mr. Chairman. And let me 
apologize again for the other committee activity that's been 
going on at the same time.
    So I was elected on September 11, 2001. The day of the 
attacks, I was elected in a special election in a Democratic 
primary in Massachusetts. And I remember how the whole of 
government was refocused on a response to those attacks, both 
offshore and here at home. We created the National 
Counterterrorism Center to improve the fusion and analysis of 
terrorist-related intelligence among our 16 intelligence 
agencies, to better connect the dots, to prevent future 
terrorist attacks.
    I know, Dr. Geltzer, you discussed the NCTC, the National 
Counterterrorism Center, during your opening remarks. Did you, 
in fact, work with the NCTC prior with your work on the 
National Security Council?
    Mr. Geltzer. I did, Mr. Chairman. I got to work with NCTC 
quite a bit.
    Mr. Lynch. Now, just to flesh that out a little bit, the 
National Counterterrorism Center is outward facing, is it not, 
partly because of the response of that day and our activities 
thereafter? Is it suited and structured to deal with white 
nationalism, white supremacist terrorism?
    Mr. Geltzer. I think there's room to get much more of 
NCTC's help in this aspect of----
    Mr. Lynch. How would we do that? You know, I know that many 
of our privacy folks get very nervous, as do I, when we--when 
we retarget domestic activity because, you know, the American 
people, we have an obligation to make sure privacy rights are 
protected. And this surveillance sort of and intervention 
protocol makes a lot of people nervous in that regard. And I 
was hoping that you might be able to help us approach this with 
existing resources and structures so we're not expanding, you 
know, the rights of law enforcement or counterterrorism 
agencies to actually, you know, spy on the citizens of the 
United States.
    Mr. Geltzer. Yes, Mr. Chairman, so that's part of why I 
think this framing that this hearing has adopted of emphasizing 
the transnational nature of today's violent white supremacist 
threat is particularly helpful. Because the statutory language 
on NCTC's mandate is not crystal clear, but it's generally been 
understood to focus them or perhaps overwhelmingly direct NCTC 
toward international terrorism. But what you've heard today 
from me, from fellow panelists, is that this actually is a form 
of international terrorism. And that would seem to, within 
existing statutory authorities, activate NCTC and allow it to 
play the role in this area that I saw firsthand it play when it 
came to jihadism.
    That role included everything from very big picture 
strategic analyses, looking at trends and trajectories of ISIS, 
Al-Qaeda, Al Shabaab, where they were headed, what their new 
online recruitment tactics were, to more granular issues, such 
as fusing intelligence across the community about particular 
threats, which informed policymakers as they deliberated about 
how to respond to those threats. And if this is the 
transnational threat that it seems to be, that seems to invite 
NCTC's participation in understanding it and addressing it.
    Mr. Lynch. Would we have to prove that nexus is there? 
Because many of these individual actors have no organizational 
connection, but they have an ideological connection.
    Mr. Geltzer. It is difficult, and I believe that 
intelligence community lawyers should be cautious, for many of 
the reasons you indicated before. They are one piece of the 
structure of safeguards to protect Americans and others against 
an overreach on the part of our intelligence community. If 
those lawyers being cautious feel that the current statutory 
language does restrict them from looking at least at key 
aspects of the picture we're talking about today, then I think 
there would be a valid basis for considering getting NCTC, 
through statutory amendment, into the game on even domestic 
terrorism. And to be clear, that's no new collection 
authorities.
    Mr. Lynch. Right.
    Mr. Geltzer. That's no new ability to surveil. It's instead 
about NCTC being able to take what is already collected under 
existing authorities and analyze it in the way NCTC has done, 
to my mind, quite effectively since 9/11 for other types of 
terrorist threats.
    Mr. Lynch. Very good. So it's a matter of deploying 
resources as opposed to seeking new powers?
    Mr. Geltzer. I think that's right.
    Mr. Lynch. Yes. Dr. Belew, would you like to add anything 
to that?
    Ms. Belew. I think I would just underscore that, the fact 
that leaderless resistance is a mode of organizing that appears 
not to have connections within it, it is still a mode of 
organizing. It's not that there is not an organizational 
connection between these actors; it's that we have to 
recalibrate and understand how it works, much like the 
intelligence community did around jihadism.
    So I think the correction that needs to happen is within 
our own thinking and speaking about this to recognize that as 
strategic. It's deliberate on the part of the movement to 
obfuscate what they're doing and to make it really difficult to 
prosecute and surveil.
    Mr. Lynch. Yes. We see that on Achan.
    Ms. Belew. Yes.
    Mr. Lynch. Ms. Mulligan?
    Ms. Mulligan. So what I would add to what my colleagues 
have already contributed is that our law enforcement--our 
existing law enforcement tools really aren't well situated to 
investigate groups. They typically are individualized crimes 
that are being investigated. And so the value add of bringing 
the authorities that NCTC has to bear on this problem--and to 
be clear, there's a lot that can be done within their existing 
statutory framework. What they can bring to bear is the group 
dimension, the potential links to state sponsors, and a better 
ability to engage with our foreign partners about the trends 
and dynamics and statistics that they're seeing in their own 
countries.
    Mr. Lynch. I see. Is that happening now, Dr. Geltzer, in 
terms of, you know, the cross-pollinization among local 
agencies? I know we have the Joint Terrorism Task Force and 
that does some of that, but is that happening generally?
    Mr. Geltzer. I think we've built structures for it, but I 
think those structures have, since 9/11, overwhelmingly been 
directed toward other forms of violent extremism, in particular 
jihadism. And to activate that with respect to this form of a 
threat, obviously a threat that's growing and concerns us all, 
I think that's an important recalibration of our resources and 
our priority.
    Also, to pick up on Ms. Mulligan's point, in terms of 
NCTC's director engaging with foreign counterparts, which is a 
critical part of that job, those conversations, as I understand 
it from people who've held that role, have really been about 
jihadism, because that's what NCTC has been focused on. If this 
becomes part of what NCTC analyzes and helps us all to 
understand, it then allows the person in that very, very 
important role to have meaningful conversations with foreign 
partners about this violent white supremacist threat.
    Mr. Lynch. Very good. Thank you.
    Mr. Chairman, I notice my time is expired. I yield back.
    Mr. Raskin. Thank you very much, Mr. Lynch.
    Congresswoman Eleanor Holmes Norton from the District of 
Columbia is recognized now for five minutes.
    Ms. Norton. Thank you very much, Mr. Chairman. I really 
thank you for your focus on this set of hearings.
    As we have seen the frightening rise of white supremacy in 
a way we had, many of us, particularly from the civil rights 
movement, thought we would never again see in our country. You 
look at the Charlottesville rally, the Proud Boys rally in 
Portland, and you see people openly proclaiming white supremist 
ideas. So your hearing is very well placed.
    First, I'd like to know--perhaps Dr. Belew can answer this 
question--we look at existing counterterrorism strategies and 
have to wonder whether they take into account the rise of white 
supremacy in--as we see white supremacy further penetrating the 
American consciousness of some in our country. Doctor--I guess 
it is really Dr. Geltzer who I should direct this question to. 
How does the fact that white supremacy is so much more 
mainstream--if I can use that word. I don't want the American 
public to think we think that they have bought into this, but 
I'll use that--more mainstream at least than Islamic jihadism, 
how does that change the way we think about it in national 
security terms?
    Mr. Geltzer. Thank you for the question, Congresswoman. I 
think the emergence of white supremacism, as you say, not at 
all as a mainstream view, but instead as something of 
increasing significance as a threat, and a national security 
threat, I think that needs to get reflected in the strategies 
that ultimately guide resources and priorities for the 
counterterrorism pieces of the U.S. Government.
    Ms. Norton. Do you see it reflected yet?
    Mr. Geltzer. Probably insufficiently, but my hope is that 
we're moving and that we will--accelerate moving in a better 
direction. So going back to last year's National Strategy for 
Counterterrorism, there was at least explicit reference to it. 
And I give the administration strategy credit for including 
that acknowledgement----
    Ms. Norton. Last year's what? I'm sorry.
    Mr. Geltzer. Last year's National Strategy for 
Counterterrorism.
    Ms. Norton. Yes.
    Mr. Geltzer. Now, today, as I believe the chairman 
mentioned earlier, today, the Department of Homeland Security 
is anticipated to release its own strategy implementing, 
showing how that Department in particular will implement that 
broader whole-of-government strategy. And my understanding is 
that the Department of Homeland Security will be explicit about 
this nature of the threat, and I think that's an important step 
forward to do so, because 9/11 drove home, it was obvious after 
9/11, the importance of acting against jihadism. Here we need 
something that drives that home not just to the American 
people, but also to the parts of government that answer to 
those strategy documents.
    Ms. Norton. I'm looking at law enforcement and 
counterterrorism agencies to see what they, in particular, are 
doing in white communities. For example, law enforcement 
agencies have often relied heavily on communities of color to 
police themselves and identify people who were exhibiting signs 
of potential extremism.
    Dr. Geltzer, are law enforcement and counterterrorism 
agencies doing the same thing with white communities, calling 
on them to identify supremists--white supremist threats in 
their neighborhoods? Should they be doing so? Should we be 
doing more, relying on our own people, who we know don't 
generally embrace these extreme ideologies?
    Mr. Geltzer. My basic answer is that, for whatever form of 
politically motivated violence, activating communities to be a 
source of help, a source of identifying the problem, that's 
important. That's critical. Because as I mentioned earlier, 
it's often someone in the community who sees at least some 
change. It's not obvious to them necessarily that the change is 
one pointing toward terrorism or some other form of violence, 
but they see some change in the sort of individuals whom we 
would probably describe here as going down a path of 
radicalization, potentially toward violent extremism.
    And when I was in government, I remember community 
awareness briefings, CABs, that were offered by a couple of 
different departments and agencies, quite deliberately talked 
about different forms of violent extremism, so that there was 
no sense that any one community was being picked on or that any 
one type of violence was the only kind the government cared 
about. Obviously, if you're a victim or family member of a 
victim, you don't care which political ideology motivates the 
attack that takes a life; you care about that awful 
consequence. And I think that should drive the government's 
response.
    Ms. Norton. Thank you very much.
    Mr. Chairman, directing our national security efforts 
toward white extremism of this kind before it gets completely 
out of hand is very important. That's why this hearing is so 
important to us.
    Mr. Raskin. Thank you very much, Representative Norton.
    I turn now to Mr. Welch from Vermont for five minutes.
    Mr. Welch. Thank you.
    Couple of questions. I want to ask Dr. Belew whether 
violent white supremists, in your view, act purely out of 
individual hate or do they view themselves as carrying out a 
strategy of a larger social or ideological movement?
    Ms. Belew. So acts of mass violence in the white power 
movement are not imagined as the end point of this ideology. 
They're supposed to awaken other activists to join the movement 
and to carry out similar actions. So something like--we can see 
this in something like the Oklahoma City bombing, in which a 
white power activist carried out that activity not just to kill 
the people in the Federal building, although that's one of the 
outcomes of that action, but also it's meant to inspire others, 
and it did. People are hanging McVeigh's picture in their 
homes. They're talking about him online as a hero of the 
movement, and they're using that as a model for future violent 
activism.
    Similarly, the manifestos that we're seeing in this most 
recent spate of attacks have inside of them things like 
tactical instructions for future gunmen about target selection, 
ammunition selection.
    Mr. Welch. So that stuff is on the internet?
    Ms. Belew. Oh, yes. This is all on the internet.
    Mr. Welch. Do we have some copies of that? I'd love to see 
that.
    Mr. Raskin. We can get that, yes.
    Mr. Welch. Continue.
    Ms. Belew. Sure. I think the other thing I would say is 
that it's important to remember that the key thing people often 
are missing about this ideology is the critical piece of 
information about how a tiny fringe movement of people thinks 
they possibly can do what they've set out to do----
    Mr. Welch. Right.
    Ms. Belew [continuing]. which is overthrow the U.S. 
Government, the most militarized super state in world history, 
right? And in order to understand that, we really have to take 
seriously this--the thing that answers that imaginative 
question is this dystopian novel from the late 1970's called 
``The Turner Diaries.'' You'll see it talked about a lot, 
because it's more than just a novel. It sort of becomes this 
cultural lodestar of the movement because it fills in this 
imaginative gap and explains how these actors think they could 
possibly accomplish this.
    It lays out a series of steps, the first being guerrilla 
warfare and sabotage and mass attacks, like Oklahoma City or El 
Paso or Charleston. But it escalates into seizing a white 
homeland and eventually overthrowing the United States and 
annihilating people of color around the world. So it's 
profoundly violent.
    Mr. Welch. So it's really important to put this--to 
acknowledge that these acts are not just acts of hate; they're 
political acts intended to have a political effect----
    Ms. Belew. Yes.
    Mr. Welch [continuing]. that will be magnified. So----
    Ms. Belew. Yes. And as I think one of your witnesses said 
in an earlier hearing, hate crimes and domestic terror are not 
mutually exclusive, but not every hate crime is an act of 
domestic terror. What we're talking about today is domestic 
terror.
    Mr. Welch. So how--what's an approach to deal with that? I 
mean, if it's an ideology, people believe what they believe, 
and it's generally very difficult to persuade someone who is 
ideologically committed to whatever it is they're committed to, 
that, quote, they're wrong.
    Ms. Belew. I think that's right, but I think we do have 
some organizations who are doing the very, very difficult kind 
of frontline work of reaching people in these groups and 
helping them leave the movement. So creating a grants program 
to fund those organizations would be enormously helpful to 
ratcheting down some of that activity and recruitment power in 
the short term.
    Mr. Welch. How? Just explain how that would work. I mean, 
if I had--let's say we had a program that wanted to address 
this, how would we do outreach to people that we need to talk 
to?
    Ms. Belew. Oh, I think you fund existing nonprofits that 
are already doing this, like Life After Hate and the Free 
Radicals Project, which are manned by people who used to be 
violent white power activists and who get more call volume than 
they can handle of people who are trying to leave this 
movement. It's very difficult to get out once you're in.
    I think the other thing that's worth exploring is the 
public racial reconciliation process, which the United States 
has never undertaken in any major scale, but smaller ones, 
around actions like the 1979 Greensboro shooting, which was a 
neo-Nazi and clan massacre of leftist demonstrators, after 
which the gunmen were acquitted on State and Federal trial. 
Things like that truth in reconciliation process have really 
created opportunities for local communities to reach these 
people and have dialogs that can lead people out of this way of 
thinking.
    Mr. Welch. Okay. Thank you very much. I'm sorry I don't 
have time for more questions, but I really appreciate the 
panel.
    I yield back.
    Mr. Raskin. Thank you very much.
    And we did have a witness in a prior hearing from Life 
After Hate who testified also about the budget cuts that they 
had experienced from the administration.
    I come now to the gentlelady from Massachusetts, Ms. 
Pressley. She's recognized for five minutes.
    Ms. Pressley. There is concern--thank you, Mr. Chair.
    There is concern amongst the civil rights community, that 
any new counterism authorities or resources could be used 
against vulnerable groups when defining violent white supremacy 
as international terrorism. We saw evidence of this in the 
aftermath of 9/11 when there was an overreach by U.S. 
counterterrorism and law enforcement agencies against Arab 
Americans, American Muslims, and South Asian Americans.
    Ms. Mulligan, are civil rights leaders and communities of 
color right to be concerned about providing additional 
authorities to U.S. national security agencies?
    Ms. Mulligan. They are right to be concerned. And I think 
those concern--oh, sorry to repeat myself. They are right to be 
concerned. And I think that we can and should listen to those 
communities in developing the solutions to the problem that 
we're seeing today, not only because those communities 
disproportionately suffer from violence at the hands of white 
supremacists, but also because, as you've mentioned, they have 
lived experiences with government counterterrorism efforts and 
have perspectives on what has and has not worked.
    One of the reasons that, in my testimony today, I don't 
call for an expansion of authorities is for the reasons that 
you suggest, but the other reason is because there's quite a 
lot that we can do within the existing national security 
framework and set of authorities to improve our response to 
this problem. And we can do that in ways that don't involve 
increasing surveillance, adding to watch lists, or leveraging 
intelligence and information against Americans.
    Ms. Pressley. And that does not violate civil rights and 
civil liberties?
    Ms. Mulligan. Absolutely.
    Ms. Pressley. Okay. In August, we learned from a leaked 
2018 FBI document that the FBI considered BIE, black identity 
extremists, to be as high a priority as white supremacy 
extremists, this despite the fact that white supremacy 
extremists were responsible for 39 murders in 2018, while BIEs, 
black identity extremists, were responsible for approximately 
zero that same year.
    Dr. Geltzer, do you agree with that FBI assessment?
    Mr. Geltzer. I want FBI assessments to reflect reality and 
to reflect threats, and I don't know what drove that one, but I 
do think it's--there's a reason that having aggregate numbers 
like that shared with, for example, Congress, is important, 
because it allows Congress, in its important oversight 
function, to look at whether the work that the Bureau is doing 
actually reflects deaths that are being caused, attacks that 
are succeeding, or even attacks that are being attempted. That 
strikes me as not intruding on the prerogative of law 
enforcement to, in any particular investigation, do their job, 
but it does allow folks who sit in this body to check in the 
aggregate whether resources are being appropriately allocated. 
And it seems, in fact, that those numbers have caused questions 
to be asked, like the one you're asking today.
    So that strikes me as important in facilitating oversight 
that law enforcement at that level needs.
    Ms. Pressley. And so further expounding upon that, Ms. 
Mulligan, given that the FBI's priorities, and again because of 
that aggregate data, are proven to be sort of seriously askew 
in alignment with what the actual threat is, what should 
Congress do to ensure that other counterterrorism agencies do 
not similarly and unjustly target minority communities?
    Ms. Mulligan. Well, I think first and foremost, the 
strategies that are being developed, like the one that we're 
told is coming out today from the Department of Homeland 
Security, needs to identify violent white supremacy as the 
current serious domestic threat that it is. Part of what I 
think that Congress should also do is call on the Director of 
National Intelligence to increase the priority of violent white 
supremacists as a threat in the national intelligence 
priorities framework.
    I think, in the end, what we're going to have to do is get 
better data to better document what is happening to stop 
undercounting the extent to which these crimes are being 
committed. And to do that, I think the FBI is going to have to 
get better than it currently is at enforcing its own 
regulations about how these things are counted.
    Ms. Pressley. Very good. And then, you know, for those 
that--for protesters, so, for example, after the J20 protests 
during Trump's inauguration, more than 200 people were 
arrested, even though the vast majority of those charges were 
dropped due to a lack of evidence. The civil rights community 
is also concerned about other progressive groups being the 
target of law enforcement overreach.
    So, Dr. Geltzer, what protections can we put in place to 
make sure that efforts to counter white supremist terrorists 
are directed at the right groups and are not unjustly expanded?
    Mr. Geltzer. It's a critical question you ask, and it 
applies regardless of what authorities, of course, law 
enforcement might be invoking, whether it's existing terrorism 
laws, new terrorism laws, hate crime statute. Whatever the 
statute, I don't want to see, and I don't think colleagues I 
used to work with at the Justice Department want to see that 
abused or exploited to intrude on political advocacy that's 
protected. I think that's where you have internal checks within 
these entities, not only guidelines in place, like the DIOG 
that guides the FBI's work, but you have internal actors, like 
inspectors general. You then have the role of Congress, again 
at the aggregate level, not in particular investigations, but 
at the aggregate level, providing a check. And there might be a 
role for entities like the Privacy and Civil Liberties 
Oversight Board, an independent agency within the executive 
branch, to look at use of counterterrorism authorities to 
provide additional check and oversight.
    Ms. Pressley. Thank you. Thank you, Mr. Chair.
    Mr. Raskin. The gentlelady's time is expired. Thank you 
very much.
    And the gentleman from Ohio, Mr. Jordan, is recognized for 
five minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    I just want to thank our witnesses for being here today, 
especially Ms. Owens for coming. I apologize I couldn't be here 
for some of the earlier parts of the hearing. I had an 
amendment on the floor that we were managing. But I did walk in 
a few minutes ago, and Mr. Meadows and I were visiting in the 
back room, and noticed that, Ms. Owens, you hadn't spoke for a 
while. So if there's something you'd like to add to the 
discussion over the last few minutes, I'd be happy to yield my 
four minutes to you and let you comment. But thank you again 
for your outstanding testimony, for being here as our witness 
today.
    Ms. Owens. Thank you for that. I appreciate that. I was 
just commenting back stage--I mean, back behind the chambers, 
that it is quite ironic that I'm the only black American that's 
sitting here, and yet the people that called this hearing 
haven't asked me a single question about my experience. I think 
that probably points to what I say the larger issue is, is that 
Democrats come up with the problems, they come up with the 
solutions, and black Americans are basically used as props for 
them to get out their narrative, and to ultimately control our 
vote using fear tactics.
    I also found it quite hilarious that when asked for actual 
numbers, nobody here could actually provide them, because it's 
not actually a problem in America or a major problem or a 
threat that's facing black America. This is, again, just 
election rhetoric. This is, again, just attempt to assault an 
administration that is doing all that they can to help black 
America in every single regard, whether it's criminal justice 
reform, whether it's talking about real issues like school 
choice, which should be implemented to conquer some of these 
illiteracy rates that are actually harming the black community.
    And I think it's unfortunate that we have this many 
hearings on something that is so small in America, and we 
aren't having real hearings. I actually don't think the 
Democrats have completed a single day of real work since Donald 
J. Trump went into office. This has just been about attacking 
his administration day in and day out with things that do not 
matter.
    I am hopeful that we will come to a point where we actually 
have hearings about things that matter in America, things that 
are a threat to America, like illegal immigration, which is a 
threat to black America, like socialism, which is a threat to 
every single American, and I hope that we see that day. It's 
definitely not going to be today.
    Fortunately, we have Republicans that are fighting every 
single day, day in and day out, and I will wrap this up by 
saying what I said at the beginning of my testimony, which is 
that for all of the Democrat colleagues that are hoping that 
this is going to work, and that we're going to have a fearful 
black America at the polls, if you're paying attention to the 
stuff that I'm paying attention to, the conversation is 
cracking. People are getting tired of this rhetoric. We're 
tired that we're being told by you guys to hate people based on 
the color of their skin or to be fearful. We want results. We 
want policies. We're tired of rhetoric.
    And the numbers show that white supremacy and white 
nationalism is not a problem that is harming black America. 
Let's start talking about putting fathers back in the home. 
Let's start talking about God and religion and shrinking 
government, because government has destroyed black American 
homes, and every single one of you know that, and I think many 
people should feel ashamed for what we have done and what 
Congress has turned in to. It's Days of Our Lives in here, and 
it's embarrassing.
    Mr. Jordan. I thank the lady for her comments and Ms. 
Owens, thank you for being here today as our witness.
    And with that, I would yield back the balance of my time.
    Mr. Raskin. I thank the gentleman. Has everyone gone here, 
Mr. Meadows? Okay. Well, I definitely want to take a few more 
minutes and anyone else who has closing thoughts or questions. 
I'm going to invite them to do it. Obviously, I resist the 
suggestion that our hearing is something that doesn't matter, 
and that it's somehow a distraction from truly important 
business. The title of our hearing is ``Confronting Violent 
White Supremacy, Addressing the Transnational Terrorist 
Threat.'' Let me just quickly ask the other witnesses to 
respond. Would you say that this is something that does not 
matter? I know that you are all professional experts on the 
subject and have devoted your careers to it. How do you respond 
to the idea that this is something that doesn't matter compared 
to God and religion, for example, which were offered? Dr. 
Geltzer?
    Mr. Geltzer. Well, as somebody who once had 
counterterrorism in my title, I obviously think that any form 
of violence extremism matters, and part of what makes terrorism 
so distinctive is that whatever the numbers might be about 
those killed in particular attacks, obviously tragic for those 
people, but terrorism has an outside effect, it transcends 
those numbers. It leads to political backlash at times. It 
divides communities. It polarizes. That's why many of us who 
work on terrorism and counterterrorism think that it can't be 
reduced to the numbers killed. Those are acts of tragedy in and 
of themselves. But it's that idea that taking whatever your 
view of political goals and pursuing it through violence, 
that's disruptive to society as we know it, and that's why I 
think it's an important conversation we're having.
    Mr. Raskin. Well, thank you for that point. I mean, I 
suppose someone could look at the casualties that our Nation 
experienced at 9/11, and say that was smaller than the total 
number of people killed in gun violence or in drunk driving 
that year, but that doesn't capture the political, the social, 
the emotional, the interpersonal reality of an act of 
terrorism. Dr. Belew, what is your response to the idea that 
it's something that doesn't really matter?
    Ms. Belew. Well, we have a history of treating it like it 
doesn't matter, and the result of that has been death and 
destruction, and the disruption of all kinds of peoples' lives. 
I suppose I would point to kind of two historical examples to 
understand this a little bit better. One is this idea that it's 
hilarious, my co-panelist says that there are no numbers; that 
their numbers show, she says, that this is not a problem, and 
she points out that none of us give the numbers.
    I'd like to talk for a minute about why we don't have the 
numbers, if I may. From the outset, surveillance in the United 
States has been a profoundly political project, so we can go 
all the way back to the 1960's and think about how things like 
the FBI counterintelligence program were unequally targeted. 
COINTELPRO, people in this room might know, was a project that 
sought to disrupt fringe activism on both the left and the 
right. But we know from the history that it was profoundly more 
focused on the left and on activists of color than on the 
right. So Klan groups were infiltrated, but there were no 
deaths of Klan activists in this period at the hands of FBI 
informants. Nor was there a cohesive effort to disrupt those 
groups the way that there was on the left.
    Similarly, our resources have been overwhelmingly dedicated 
to confronting Islamic or international terror rather than 
white or domestic terror. The reason we don't have these 
numbers is because there hasn't been an aggregating data 
project within the Federal Government. The watchdogs that have 
been in charge of aggregating this data have had their own 
motivations and their own reasons for using different kinds of 
data collection practices.
    I just have to say that I object strenuously to the use of 
your word ``hilarious.'' To me, this feels a lot like your 
reaction to being named in one of these manifestos. Now, 
you're, of course, not responsible for the words of somebody 
writing that document, but I do think that laughing at it is a 
real problem, because these are real families that are impacted 
by this violence, and I think our efforts toward talking about 
this have to start from a place of mutual respect, which is 
what I've heard from this side of the table. Now the reason we 
don't have those numbers, I want those numbers as much as you 
do, but the number--to say the numbers don't show something is 
simply not supported by the data.
    Mr. Raskin. Okay. And I have 38 seconds left. Ms. Mulligan, 
if you can--if you want to respond within that time.
    Ms. Mulligan. The only thing I would add is that it's in 
the name, terrorism, domestic terrorism. It terrorizes us. It 
terrorizes us in our homes, it terrorizes us in our schools, 
and to the points made by the other panelists, it is 
disproportionate to its impact on any individual life, and it's 
not----
    Mr. Raskin. You reject the idea it's something that doesn't 
matter or doesn't really matter?
    Ms. Mulligan. Absolutely reject.
    Mr. Raskin. Okay. So here's where we are, every member now 
has had five minutes----
    Mr. Meadows. I'll go ahead and claim my five minutes.
    Mr. Raskin. Okay. So we have two members who have not. So 
I'm going to go to the two members who have not yet and we'll 
give an opportunity for a closing thought to any member who 
wants before we go.
    Mr. Jordan. Am I next to respond or is Mr. Meadows?
    Mr. Raskin. I thought Mr. Meadows. Mr. Meadows is next, 
then Mr. Clay, then to you Mr. Jordan.
    Mr. Meadows. Ms. Owens, obviously this is a gang-up on you, 
you know. We're giving these witnesses the ability to do a 
rebuttal on you, and so, you know, I find it unfair, Ms. Belew. 
I mean, candidly, for you to show mutual respect and then you 
to go after Ms. Owens is not appropriate. So Ms. Owens, you can 
have four minutes and 34 seconds to respond however you want.
    Mr. Jordan. Will the gentleman yield for a second?
    Mr. Meadows. I'll yield.
    Mr. Jordan. Thank you. I believe, Ms. Owens, when you used 
the word ``hilarious,'' it was referencing the fact that no one 
had asked you a question; it wasn't to the subject matter of 
the hearing. Is that right?
    Ms. Owens. That is correct.
    Mr. Jordan. And to have another witness insinuate something 
that is not accurate is just not appropriate, Mr. Chairman, for 
how witnesses are supposed to behave in front of this 
committee. I also think you didn't say it doesn't matter about 
the subject matter of today's hearing. You said there are other 
subjects that matter as well, and maybe we should spend some 
time on those. Is that accurate?
    Ms. Owens. That is correct, and they matter much, much, 
much, much more, and I have said that. I said that in my 
opening and I will say it again. You know that white supremacy 
and white nationalism is nowhere near--ranks nowhere near the 
top of the issues that are facing black America, and the reason 
that you are bringing them up in this room is because it is an 
attempt to make the election all about race as the Democrats--
--
    Mr. Raskin. Not in my case, Ms. Owens.
    Ms. Owens. Please don't cut me off.
    Mr. Raskin. Please do not characterize my motives.
    Mr. Jordan. Mr. Chairman, it's my time.
    Mr. Raskin. You got your time, Mr. Meadows. I'll give you 
three more seconds.
    Ms. Owens. Every four years, you bring up race and you knew 
exactly what I meant when I said hilarious, and you just tried 
to do live what the media does all the time to Republicans, to 
our President, and to conservatives, which is you try to 
manipulate what I said to fit your narrative. Okay? I was not 
referring to the subject matter that is hilarious. I said it's 
hilarious that we are sitting in this room today, and I've got 
two doctors and a Mrs. and nobody can give us real numbers that 
we can respond to so we can assess how big of a threat this is, 
because you know that it is not as big of a threat as you are 
trying to make it out to be so you can manipulate.
    And the audacity of you to bring up the Christchurch 
shooting manifesto and make it seem as if I laughed at people 
that were slaughtered by a homicidal maniac is, in my opinion, 
absolutely despicable, and I think that we should be above 
that. To try to assign reality or any meaning to a homicidal 
maniac writing a manifesto, which, by the way, let the record 
show also stated Spyro the Dragon, the child's cartoon, as a 
source of inspiration. He also cited Nelson Mandela as a source 
of information. I don't think that Nelson Mandela has inspired 
mosque shootings. You can correct me if you think I'm wrong.
    You would rather assign meaning to a homicidal maniac than 
to actually address what I said--the things that I said today 
that are actually harming black America. No. 1, father absence. 
No. 2, the education system and the illiteracy rate. Illegal 
immigration ranks high, abortion ranks high. White supremacy 
and white nationalism, if I had to make a list again of 100 
things, would not be on it.
    This hearing, in my opinion, is a farce, and it is ironic 
that you're sitting here and you're having three Caucasian 
people testify and tell you what their expertise are. Do I know 
what my expertise are? Black in America. I've been black in 
America my whole life, all 30 years, and I can tell you that 
you guys have done the exact same thing every four years ahead 
of an election cycle and it needs to stop.
    Mr. Meadows. I'll yield back.
    Mr. Raskin. Thank you, Mr. Meadows. And now we go to Mr. 
Clay for five minutes.
    Mr. Clay. Thank you, Mr. Chairman. And I have no questions 
for Ms. Owens, but I will ask the other witnesses who may be 
able to shed some light on this. Two months after the terrorist 
attack in Christchurch, which was live-streamed on Facebook for 
a full 17 minutes, New Zealand Prime Minister Jacinda Ardern, 
and French President Emmanuel Macron brought together heads of 
state and leaders from the private sector to adopt the 
Christchurch call.
    The Christchurch call is a commitment by governments and 
technology companies to eliminate terrorist and violent 
extremist content online. It outlines collective voluntary 
commitments from governments and online service providers to 
prevent the abuse of the internet as occurred during and after 
the Christchurch attacks. Some of these commitments include 
government enforcement of applicable laws that prohibit the 
production or dissemination of terrorist and violent extremist 
content, and industry commitments to take transparent specific 
measure to prevent the upload of terrorist and violent 
extremist content onto social media platforms and to prevent 
its dissemination.
    Australia, Canada, European Commission, France, Germany, 
Indonesia, India, Ireland, Italy, Japan, Jordan, the 
Netherlands, New Zealand, Norway, Sweden, Senegal, Spain, the 
United Kingdom, Amazon, Facebook, Google, Microsoft, Twitter, 
YouTube, Daily Motion, and Quant all signed on to the 
agreement. The United States did not. In a statement, the White 
House declared: While the United States is not currently in a 
position to join the endorsement, we continue to support the 
overall goals reflected in the call.
    Dr. Geltzer, what message do you think it sends to white 
supremacists and the world that the United States would not 
sign on to the Christchurch agreement?
    Mr. Geltzer. I think that was disappointing, Congressman 
Clay. I would urge the United States to take another look at 
that, especially with upcoming in New York at the U.N. General 
Assembly, upcoming conversations among the countries that did 
sign it. I think that would make for an excellent opportunity 
to show the United States' own commitment to that agreement.
    In fairness, our country has a different Constitution. We 
do have a First Amendment, but by my read of that call, the 
keyword that you used, Congressman Clay, of voluntary 
interaction strikes me as falling on the constitutional side of 
what the government would be signing up to do, to urge, inform, 
but not demand of tech companies that certain content be taken 
down. That strikes me as within the realm that protects 
constitutional rights that I take very seriously. But at the 
same time, would show a commitment to addressing this issue.
    Mr. Clay. Thank you for that response. Ms. Mulligan, is 
there more that the United States as well as the private sector 
can do to prevent the internet from being an incubator for 
extremist content?
    Ms. Mulligan. Thank you for the question, Mr. Clay. I think 
there's a lot more that the government can do, and as for the 
private sector, I both think that there's more that they can 
do, and I'm also a bit reticent to think that they are best 
positioned to make the kinds of policy decisions and tradeoffs 
that need to be made. On the Federal Government side, I think 
that there's more that the Department of Justice, Homeland 
Security, the intelligence community, and the National 
Counterterrorism Center can do, and I would call on the 
National Security Council staff to actively implement last 
year's national strategy for counterterrorism, which identifies 
domestic terrorism as a major threat.
    Mr. Clay. Do you think the Christchurch call sufficiently 
protects First Amendment rights?
    Ms. Mulligan. I agree with the comments that were made by 
my co-panelist, Dr. Geltzer, that there's an important tension 
there, and we ought to be mindful of it. I think whatever we do 
in the encountering violent white supremacy or any type of 
threat needs to be mindful of our Constitution and our First 
Amendment, but there is an important difference between the 
types of ideas that lead to violence, and the types of ideas 
that we're comfortable with people holding.
    Mr. Clay. Thank you for your responses.
    And I yield back.
    Mr. Raskin. Thank you, Mr. Clay. I want to thank all of our 
witnesses for coming and participating in an incredibly 
substantive and effective elucidation of the problem of the 
transnational terror threat. We learned a lot. This is going to 
be very useful to the deliberations of the committee, and it 
was a lively discussion, and I want to thank all of our guests 
who came with us and we are going to adjourn at this point. You 
have--there will be five days within which members can request 
followup questions from you. Is there anything else? And the 
meeting is adjourned.
    [Whereupon, at 12:14 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
